<html>
<title> - H.R. 2057 and H.R. 2416</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




 
                        H.R. 2057 and H.R. 2416

=======================================================================

                       JOINT LEGISLATIVE HEARING

                               before the

                SUBCOMMITTEE ON FISHERIES CONSERVATION,
                          WILDLIFE AND OCEANS

                             joint with the

                      SUBCOMMITTEE ON FORESTS AND
                             FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             June 19, 2003

                               __________

                           Serial No. 108-29

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
87-804 PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
W.J. ``Billy'' Tauzin, Louisiana     Eni F.H. Faleomavaega, American 
Jim Saxton, New Jersey                   Samoa
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Solomon P. Ortiz, Texas
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Ken Calvert, California              Calvin M. Dooley, California
Scott McInnis, Colorado              Donna M. Christensen, Virgin 
Barbara Cubin, Wyoming                   Islands
George Radanovich, California        Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Jay Inslee, Washington
    Carolina                         Grace F. Napolitano, California
Chris Cannon, Utah                   Tom Udall, New Mexico
John E. Peterson, Pennsylvania       Mark Udall, Colorado
Jim Gibbons, Nevada,                 Anibal Acevedo-Vila, Puerto Rico
  Vice Chairman                      Brad Carson, Oklahoma
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Greg Walden, Oregon                  Dennis A. Cardoza, California
Thomas G. Tancredo, Colorado         Madeleine Z. Bordallo, Guam
J.D. Hayworth, Arizona               George Miller, California
Tom Osborne, Nebraska                Edward J. Markey, Massachusetts
Jeff Flake, Arizona                  Ruben Hinojosa, Texas
Dennis R. Rehberg, Montana           Ciro D. Rodriguez, Texas
Rick Renzi, Arizona                  Joe Baca, California
Tom Cole, Oklahoma                   Betty McCollum, Minnesota
Stevan Pearce, New Mexico
Rob Bishop, Utah
Devin Nunes, California
Randy Neugebauer, Texas

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

       SUBCOMMITTE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                 WAYNE T. GILCHREST, Maryland, Chairman
        FRANK PALLONE, JR., New Jersey, Ranking Democrat Member

Don Young, Alaska                    Eni F.H. Faleomavaega, American 
W.J. ``Billy'' Tauzin, Louisiana         Samoa
Jim Saxton, New Jersey               Neil Abercrombie, Hawaii
Mark E. Souder, Indiana              Solomon P. Ortiz, Texas
Walter B. Jones, North Carolina      Madeleine Z. Bordallo, Guam
Richard W. Pombo, California, ex     Nick J. Rahall II, West Virginia, 
    officio                              ex officio
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                   SCOTT McINNIS, Colorado, Chairman
            JAY INSLEE, Washington, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina                         Mark Udall, Colorado
John E. Peterson, Pennsylvania       Anibal Acevedo-Vila, Puerto Rico
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
Jeff Flake, Arizona                  VACANCY
Dennis R. Rehberg, Montana           VACANCY
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Stevan Pearce, New Mexico                ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 19, 2003....................................     1

Statement of Members:
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland, Prepared statement on H.R. 2057 and 
      H.R. 2416..................................................    54
    Green, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin, Oral statement on H.R. 2057..................     3
    McGovern, Hon. James P., a Representative in Congress from 
      the State of Massachusetts.................................    35
        Prepared statement on H.R. 2416..........................    37
    McInnis, Hon. Scott, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement on H.R. 2057..........................     2
        Prepared statement on H.R. 2416..........................     3
    Ryan, Hon. Paul, a Representative in Congress from the State 
      of Wisconsin, Prepared statement on H.R. 2057..............     5

Statement of Witnesses:
    Acord, Bobby R., Administrator, Animal and Plant Health 
      Inspection Service (APHIS), U.S. Department of Agriculture.    11
        Prepared statement on H.R. 2057..........................    13
    Estill, Elizabeth, Deputy Chief, Programs, Legislation and 
      Communications, Forest Service, U.S. Department of 
      Agriculture................................................    43
        Prepared statement on H.R. 2416..........................    44
    Forster, Catherine A., Ph.D., Associate Professor, Society of 
      Vertebrate Paleontology....................................    45
        Prepared statement on H.R. 2416..........................    47
    George, Hon. Russell, Director, Division of Wildlife, 
      Colorado Department of Natural Resources...................    15
        Prepared statement on H.R. 2057..........................    17
    Groat, Charles G., Director, U.S. Geological Survey, 
      Department of the Interior.................................     6
        Prepared statement on H.R. 2057..........................     8
    Lamb, Robert J., Senior Advisor to the Assistant Secretary of 
      Policy, Management and Budget, U.S. Department of the 
      Interior...................................................    38
        Prepared statement on H.R. 2416..........................    40
    Taylor, Gary J., Legislative Director, International 
      Association of Fish and Wildlife Agencies..................    19
        Prepared statement on H.R. 2057..........................    22
    Vlamis, Ted J., Amateur Paleontologist.......................    49
        Prepared statement on H.R. 2416..........................    50


 JOINT LEGISLATIVE HEARING ON H.R. 2057, TO PROVIDE FOR A MULTI-AGENCY 
 COOPERATIVE EFFORT TO ENCOURAGE FURTHER RESEARCH REGARDING THE CAUSES 
OF CHRONIC WASTING DISEASE AND METHODS TO CONTROL THE FURTHER SPREAD OF 
  THE DISEASE IN DEER AND ELK HERDS, TO MONITOR THE INCIDENCE OF THE 
DISEASE, TO SUPPORT STATE EFFORTS TO CONTROL THE DISEASE, AND FOR OTHER 
       PURPOSES; AND H.R. 2416, TO PROVIDE FOR THE PROTECTION OF 
  PALEONTOLOGICAL RESOURCES ON FEDERAL LANDS, AND FOR OTHER PURPOSES.

                              ----------                              


                        Thursday, June 19, 2003

                     U.S. House of Representatives

           Subcommittee on Fisheries Conservation, Wildlife 
                       and Oceans, joint with the

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittees met, pursuant to call, at 10 a.m., in 
room 1334, Longworth House Office Building, Hon. Scott McInnis 
[Chairman of the Subcommittee] presiding.
    Present: Representatives McInnis, Inslee, McGovern, Tom 
Udall, Mark Udall, Gilchrest, Green, Tancredo, Ryan, Rehberg, 
Kind, Renzi, Pearce, and McCollum.
    Mr. McInnis. It is getting toward the end of the week, 
which means that my patience is very short, which means that if 
you have a cellular phone, take my advice and turn it off. The 
same thing with pagers.
    Put them on vibrate or something else, but I don't want our 
witnesses being rudely interrupted by somebody's cell phone. So 
if you would follow that rule, I would appreciate that. This 
morning we are doing a joint hearing, and what I intend to do 
if the appropriate members show up at the time that their time 
slot arrives is to give 10 minutes to the Chairman, and the 
respective Chairman of the two subcommittees, and give 10 
minutes to the respective Ranking Members.
    I also would allow either of those, or any of those four 
people to reserve the right to yield some of that time, as I 
intend to yield some to Mr. Green for some brief opening 
remarks. OK. We will go ahead and begin the hearing.

   STATEMENT OF THE HON. SCOTT McINNIS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. McInnis. Today this joint Subcommittee hearing will 
take its second look in as many years at Federal, State, and 
local efforts to contain and ultimately eradicate chronic 
wasting disease. Just over a year ago, Mr. Gilchrest and I, 
pulled all the best and most knowledgeable minds into the same 
room to begin the process of developing an integrated and long 
term vision focused on protecting North America's wild and 
captive deer and elk populations from this disease.
    I would also at this point in time like to leave my 
remarks, and just openly acknowledge my long time friend, and 
who I consider one of the leading experts in the country in 
regards to this particular problem, and that is Russell George, 
the Director of the State Wildlife for the State of Colorado.
    Russ, thank you. I know that you made the effort to come 
out there today and we appreciate your expertise and your 
assistance. Now, I am going to submit the rest of my statement 
for the record, and at this point in time yield to Mr. Green, 
if Mr. Green has some remarks that he would like to put in the 
record.
    [The prepared statements of Mr. McInnis follows:]

          Statement of The Honorable Scott McInnis, Chairman, 
        Subcommittee on Forests and Forest Health, on H.R. 2057

    Today this Joint Subcommittee hearing will take its second look in 
as many years at Federal, state and local efforts to contain and 
ultimately eradicate Chronic Wasting Disease. Just over a year ago, Mr. 
Gilchrest and I pulled all of the best and most knowledgeable minds 
into the same room to begin the process of developing an integrated and 
long-term vision focused on protecting North America's wild and captive 
deer and elk populations from this disease.
    I think that there were three take home messages from that 
exhaustive and informative dialogue last year. The first was that our 
friends in the States are best-equipped to spearhead efforts to stem 
the spread of CWD, particularly when it comes to managing the disease 
in wild cervid populations. But that doesn't mean there isn't an 
important Federal role, which leads to the second policy staple that 
emerged from last year's hearing. In order to effectively suppress the 
proliferation of CWD, Federal agriculture and wildlife agencies must 
pro-actively support the States by providing financial support and 
technical assistance in the research, management and surveillance of 
the disease. But in order to support the States in an effective manner, 
we discovered that the multitude of Federal agencies with a 
jurisdictional stake in this issue needed to more thoroughly coordinate 
and prioritize the various overlapping and redundant Federal 
activities. The need for a more unified Federal response was the third 
upshot of the hearing. With that understanding, last year I charged all 
of the relevant agencies to come up with an integrated game-plan so 
that the Federal-support structure is efficient, effective and 
responsive to the needs of our friends in the States.
    In the year since our hearing, results on the Federal side have 
been mixed. To its credit, the Departments of Agriculture and Interior 
have done an exemplary job of assisting the States in testing many 
thousands of deer and elk samples submitted for CWD screening. These 
Departments and their subordinate agencies have also done laudable work 
in bringing urgency and progress on the research front.
    Where progress has been less impressive is in formalizing and 
finalizing the inter-agency CWD game-plan that I demanded at last 
year's hearing. After our hearing, a joint task force was convened by 
the Animal Plant Health Inspection Service and the Fish and Wildlife 
Service to develop a Federal-State CWD road-map. And while that group 
formalized the broad outlines of an intergovernmental CWD program, 
Congress is still waiting for the implementation plan, and budget 
requests, that would give this program form, substance and meaning. My 
understanding is that the implementation report is essentially done, 
but awaiting approval somewhere in the administrative chain-of-command. 
I look forward to hearing from our government witnesses about the 
status of that report.
    So in the absence of that unified Federal game-plan, today we 
consider H.R. 2057. The bill, authored with the substantial input of my 
colleagues from Wisconsin Mr. Green and Ryan, creates a broad Federal 
framework to support State efforts to contain and eradicate CWD in both 
captive and wild deer and elk populations. Colleagues, I consider this 
bill a starting point in this discussion, and I look forward to working 
with all of our witnesses and other interested Members to refine the 
bill as needed to make sure that the Federal Government gets the 
maximum bang for its scarce buck as it supports State-led efforts to 
remove the threat of Chronic Wasting Disease to deer and elk 
populations around the country.
                                 ______
                                 

          Statement of The Honorable Scott McInnis, Chairman, 
        Subcommittee on Forests and Forest Health, on H.R. 2416

    The upsurge of public interest in paleontology has created an 
opportunity for paleontologists to share more of their research and 
findings with the general public. Learning of these findings and 
observing fossils in museums and educational institutions has become an 
introduction to Science for countless American students. Fossils are 
for everyone--children and adults, amateurs and professionals. From 
fossils we learn about the history of life, but much of the story is 
yet to be written. Fossils from public lands are an educational and 
scientific resource for our generation and those yet to come.
    Scientifically significant fossils on Federal lands belong to all 
the people of the United States. They should not be removed from the 
public domain, but preserved for the enjoyment and education of all 
Americans for all time. In my own district in Colorado there are 
several fossil sites and museums that support learning about 
paleontological sciences. The Wasatch and Green River Formations within 
the region have produced important fossilized resources which have been 
collected and studied by the Field Museum of Natural History in 
Chicago, the University of Colorado Museum in Boulder, The Smithsonian 
Institute and the Museum of Western Colorado. Vertebrate fossils have 
been identified, collected and studied and the area has been identified 
as one with a rich fossil record.
    Another site is the Cretaceous limestone site near Fort Hays just 
south of Pueblo, the Creede Formation, near Creed, Colorado, has plant 
and insect fossils. There are many plant fossils such as pine needles, 
cones, willow leaves, and many more located in road cuts along the Rio 
Grande. Most significant is the site of Dinosaur National Monument, 
which had 299,142 visitors last year. This museum is home to over 1500 
dinosaur bones. Today, many ideas about dinosaurs are changing, and the 
fossils at Dinosaur National Monument continue to help us learn more 
about these fascinating prehistoric animals. The fossils that give the 
monument its name were discovered in 1909 by Earl Douglass. He was a 
paleontologist who worked for the Carnegie Museum of Pittsburgh, 
Pennsylvania. President Woodrow Wilson heard about the great dinosaur 
quarry that Douglass had started, and proclaimed the site as Dinosaur 
National Monument in 1915. Years later, the National Park Service began 
to develop the quarry as it is today. The rock layer containing the 
fossil bones forms one wall of the Quarry Visitor Center. On this wall, 
scientists have carefully chipped away the rock to uncover the bones 
and leave them in place.
    The Paleontological Resources Preservation Act (PRPA) will ensure 
that fossils from Federal lands will be used for the benefit of all the 
people of the United States by fostering the maximization of 
information that is gained from these fossils and by providing access 
to these fossils for researchers and the public.
                                 ______
                                 

STATEMENT OF THE HON. MARK GREEN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Green. Thank you, Chairman. Thank you so much for 
yielding time for the courtesy of allowing me to sit on this 
Subcommittee for the day. And of course I appreciate the 
hearing itself on H.R. 2057.
    As I know this body is aware, chronic wasting disease is a 
significant and growing problem in a growing number of States 
from a wildlife management perspective, but also an economic 
perspective.
    In my home State of Wisconsin, which has received I think 
the most attention recently in terms of the chronic wasting 
disease challenge, we estimate that chronic wasting disease 
presents a one billion dollar economic impact.
    And a State the size of Wisconsin, you can imagine what 
that means potentially. It is critically important that we get 
our arms around this challenge. I am proud to join Congressman 
McInnis, Congressman Ryan, and others in introducing H.R. 2057. 
It creates a comprehensive Federal framework for assisting the 
States.
    The key points of this are, first, it is comprehensive, and 
I think that is critical. It seems to me that if we are going 
to tackle this challenge in the long run that we have to be 
comprehensive.
    We have to involve a wide range of agencies and 
institutions, institutions like APHIS, if we are going to 
succeed. There is no single silver bullet out there to this 
problem. Instead, we hope that by crossing agency lines, and by 
pulling the best minds in from agencies and institutions that 
we can develop the plan that will lick this problem in the long 
run.
    And the second key point to this legislation that I believe 
is so critical is about assistance to the States. Whether this 
legislation passes or even better, the Administration moves 
quickly enough to administer and implement the principles that 
are in this legislation, we have to do everything we possibly 
can to shift more resources out to the States.
    It is the States where this problem will truly be fought. 
They are on the front lines, and they are the ones who are 
dealing with this year around, and especially during hunting 
season.
    So I do believe that it is important that we do everything 
that we can to get the monies, including the monies that have 
already been appropriated, as quickly as possible out to the 
States for comprehensive plans so that we can make a very 
important difference.
    Mr. Chairman, thank you again for yielding time. I do 
appreciate it, and strongly support this legislation, and look 
forward to working with you to see that its principles are 
implemented. Thank you.
    Mr. McInnis. Thank you. Since none of the other members 
that are entitled to opening remarks are here, we are going to 
proceed directly to the witnesses. I would ask the witnesses 
that you keep your comments to 5 minutes.
    We have a vote that we expect to take place in about 50 
minutes. I would like everyone to--I realize this, but I want 
to get our witnesses out.
    Mr. ryan. I would just want to ask for unanimous consent to 
have my statement be included in the record.
    Mr. McInnis. There is no problem with that. Of course. Are 
there any objections or any unanimous consents? No? They are 
all in.
    Which also includes Mr. Ryan permission to sit where you 
are sitting, but we went ahead and granted that, too. So you 
are welcome to the Committee. At any rate, we want to get the 
witness statements in, and I want to leave plenty of time for 
the panel to ask these questions. I think that is where we are 
going to get the most out of this hearing.
    [The prepared statement of Mr. Ryan follows:]

Statement of The Honorable Paul Ryan, a Representative in Congress from 
                  the State of Wisconsin, on H.R. 2057

    Thank you for giving me the opportunity to return to this Committee 
to share my concerns about Chronic Wasting Disease (CWD), which affects 
my home state of Wisconsin and 11 other states. Last year, Wisconsin 
became the first state east of the Mississippi River to have confirmed 
cases of Chronic Wasting Disease. This discovery indicated that the 
disease was spreading, and that quick and thorough action was 
imperative. Since we last held a hearing on this issue in May 2002, six 
more states have reported discovering CWD in either their captive or 
wild herds. Obviously this is a problem that continues to grow and 
requires a serious response.
    CWD is a deadly disease that affects deer and elk by penetrating 
the brain with millions of microscopic holes, infecting the tonsils, 
spinal cord, and lymph nodes, and is always fatal. Unless this disease 
can be controlled soon, it could be damaging to Wisconsin's deer 
hunting industry. Every year, sportsmen in the state spend over $2.3 
billion and support 45,000 jobs throughout the state. It is vital to 
Wisconsin to preserve and support this industry by ensuring the good 
health of the deer.
    As an avid sportsman, I am deeply concerned about CWD and will 
continue to support the Federal and state CWD programs to contain and 
eradicate the disease. Over the past year, Wisconsin has worked hard to 
manage the spread of CWD. My colleague Mark Green and I joined our 
fellow hunters in Wisconsin for one of the four one-week hunting 
sessions held last summer and an extended hunting season in the fall. 
These hunts contributed to the 41,245 deer samples that have been 
analyzed. This is more testing than any other state has conducted. Of 
those samples, 207 animals have tested positive for the fatal deer 
disease. Almost all of the infected deer--201--came from the 411-square 
mile eradication zone of Dane, Iowa, and Sauk counties, indicating good 
disease management. However, officials believe the disease may be far 
more widespread within that zone.
    The testing of these deer samples has provided information to 
hunters, farmers, and recreationalists who depend on the health of the 
deer herds. Wisconsin has used this information to calm the concerns of 
citizens who worried whether it was safe to hunt and eat the meat, 
whether cattle were at risk, or whether this disease could be passed on 
to humans. Wisconsin's intensive testing effort consumed thousands of 
hours, involved 1,200 people, and has cost millions of dollars.
    I believe that the most effective role for the Federal Government 
is to support states like Wisconsin with the burdens of this effort by 
providing for surveillance, management, and research programs. Most of 
all, our backing of sound scientific research is critical to finding 
all of the necessary answers to the many unanswered questions 
surrounding CWD. If we are to manage this disease properly, if we are 
to calm citizens' concerns, and if we are to ultimately end the spread 
of this disease, scientific research will show us the way.
    Our legislation, H.R. 2057, which is the result of a bipartisan 
collaboration between Mr. Green, Mr. McInnis, and myself and 
Wisconsin's two U.S. Senators, establishes a strong alliance between 
the states and the Federal Government to combat CWD. This comprehensive 
approach will benefit the states by expanding the resources and support 
available within the Federal Government.
    In closing, I am more confident than ever that this disease can be 
controlled and eradicated. In just over a year, we have taken important 
strides towards managing CWD and learning about the disease. I will 
work to see that state and Federal agencies are provided the support 
they need to overcome obstacles in eradicating CWD. More resources 
should be dedicated towards testing, and extensive, collaborative 
research is especially needed to determine the cause of this problem. 
Lastly, we need to continue to manage the current problem while 
focusing efforts on discovering a live test, a vaccine, or a cure for 
the disease.
                                 ______
                                 
    Mr. McInnis. So I would call up the first witnesses on H.R. 
2057. On panel one, we have Mr. Groat, who is the Director, 
U.S. Geological Survey. You have got name tags up there, and if 
you would take your place.
    Mr. Bobby Acord, and he is the Administrator of the Animal 
and Plant Health Inspection Services; Mr. George--Russ, I 
introduced you earlier--Director, Colorado Division of 
Wildlife; Mr. Taylor, Legislative Director, International 
Association of Fish and Wildlife Agencies; and I understand 
that Mr. Fisher, or Dr. Fisher, and Dr. Fisher, thank you, and 
he is with the Southeast Cooperative Wildlife Disease Study.
    And since we called them in that order, we will go ahead 
and begin in that order. Mr. Groat, you may proceed. You have 5 
minutes. And by the way, thank you to all of the witnesses 
today for making this effort.
    I will tell you that Thursday is a very active day. I, for 
example, have Ways and Means going on right now. So the lack of 
presence of some of the members should not be indicative of 
their lack of interest. There is a lot of interest in this. 
This is very, very important.
    There will be lots of statements that will be entered in 
the record, and there will be lots of review of the comments 
that you make into the record by people not able to be present 
here today. Again, I appreciate your thoughtfulness in 
attending.
    And, Mr. Groat, with that, you may proceed.

  STATEMENT OF CHIP GROAT, DIRECTOR, U.S. GEOLOGICAL SURVEY, 
                   DEPARTMENT OF THE INTERIOR

    Mr. Groat. Thank you, Mr. Chairman. I am pleased to present 
the Department of Interior's views on H.R. 2057. We so share 
your concern, both for the wildlife populations, the captive 
herds, as well as Mr. Green's point for the economic impacts 
that this is having.
    At the outset the Department strongly supports the concepts 
embodied in H.R. 2057, particularly the recognition and the 
facilitation of the critical role that State Wildlife 
Management Agencies, universities, and non-governmental 
organizations, play.
    There may be a couple of instances in the legislation where 
the mechanisms that are called upon in the Department of the 
Interior are already in place, but we do strongly support the 
efforts to make the best use of those.
    We also recognize that there are varied roles for different 
Federal agencies, as well as State agencies, and those that are 
outlined for the Department of the Interior, and USGS in 
particular, are by and large appropriate as you have described 
them.
    We have already committed in the Fiscal Year 2004 budget 
the Administration's requested $3.8 million for chronic wasting 
disease efforts within the USGS. That will allow us to expand 
one of the main contributions we make, and that has to do with 
research and technical assistance to partners dealing with the 
biological information and understanding of the disease itself.
    Within this appropriations year, the Park Service will 
continue to monitor and do surveillance on the disease in the 
parks and provide for chronic wasting disease response teams. 
Also, the national refuge system will be watched over by the 
Fish and Wildlife Service and they will do surveillance there.
    We are also working cooperatively with Colorado, Wisconsin, 
and other State and Fish and Wildlife Agencies, providing 
technical assistance manpower, and participating in 
collaborative research.
    For example, we recently initiated collaborative research 
studies with the Wisconsin Department of Natural Resources and 
the University of Wisconsin to enhance scientific knowledge 
about chronic wasting disease and the development of management 
strategies.
    Over the past year the department embarked on an aggressive 
program of research into the biology of chronic wasting 
disease, its host, and its avenues of transmission, clearly one 
of the least understood aspects of the disease.
    And as was pointed out, where there is a need for lots of 
people with good ideas to participate in trying to understand 
that. In addition, we and our partners are working to develop 
methods needed to identify diseased animals in the pre-clinical 
stages.
    During 2003, we have augmented our ongoing program of 
chronic wasting disease projects with over a million dollars in 
new research, and $300 thousand in new activities initiated in 
cooperation with the States. That brings our total commitment 
to $2.7 million for this year.
    The recent addition of detection of chronic wasting disease 
in free ranging deer in additional States points to the need 
for continued Federal, State, and tribal coordination to manage 
the disease. I want to speak now specifically very quickly to 
the provisions of H.R. 2057, which relate to instructions to 
the Secretary of the Interior.
    It directs the Secretary of the Interior through the USGS 
to use existing authorities to establish and maintain a 
national data base for chronic wasting disease related 
information, which is to include surveillance and monitoring 
data for both wild and captive herds.
    We agree that information is an extremely important part of 
the program, and through our national biological information 
infrastructure, the USGS has recently implemented a prototype 
wildlife disease information network to develop a chronic 
wasting disease national data repository for scientific, 
technical and geospacial information.
    However, in terms of the data base suggested by this 
legislation, we believe that it should be developed in close 
coordination with the Department of Agriculture, and that we 
provide a national prospective by working cooperatively with 
them on providing this capability.
    Under the provisions of H.R. 2057, we are also, the USGS, 
is charged with using existing authorities in a chronic wasting 
disease surveillance and monitoring program in cooperation with 
the State and tribal agencies, and also in cooperation with the 
Department of the Interior.
    We really strongly believe that the surveillance and 
monitoring program is an extremely important component of any 
national strategy, particularly as it relates to wild herds in 
our area of responsibility.
    I am pleased to report, Mr. Chairman, that on May 1 of this 
year that the USGS released a report called Surveillance 
Strategies for Detecting Chronic Wasting Disease in Free 
Ranging Deer and Elk.
    This 41-page document is a culmination of a 3 day workshop 
that involved several agencies and many disciplines, and it was 
held at our wildlife health center in Madison, Wisconsin. This 
is the first of its kind, and it provides one of the kinds of 
tools that you envision in your legislation. It allows States 
and others to deal with it effectively.
    We also note that in Section 103 that it directs the 
Secretary to allocate funds directly to State and tribal 
wildlife agencies for the purpose of developing and 
implementing management strategies, and as you pointed out, the 
States are where the action is, and this is where the need is 
for the resources.
    Our only concern there, Mr. Chairman, is that the grant 
program that is authorized appears somewhat duplicative of the 
Fish and Wildlife Service's State wildlife grants, and that 
mechanism is in place, and doesn't necessarily fit within the 
USGS mission.
     And finally Section 104 directs the Secretary to expand 
and accelerate research through the USGS regarding detection, 
genetic resistance, tissue studies, and environmental studies 
of chronic wasting disease. We believe the Department's role in 
providing basic and applied research is extremely important and 
share the opinion expressed earlier that this is a multifaceted 
effort which many organizations, and many universities, have to 
be involved.
    We can never be too short on good ideas and good 
approaches, and as we only have one institution dealing with 
cancer, we don't need only one institution dealing with this. 
So hopefully our involvement, and Agriculture's involvement, 
and many universities, will bring that to a successful 
conclusion. Our understandings will be advanced.
    So in conclusion we fully support the concepts in H.R. 
2057. We are eager to work with you and the Department of 
Agriculture, and with the States, in achieving the goal of 
understanding and eliminating this important disease, and we 
will do everything that we can to be supportive of that effort.
    Mr. Chairman, that concludes my remarks. I submit my formal 
testimony for the record.
    [The prepared statement of Mr. Groat follows:]

   Statement of Charles G. Groat, Director, U.S. Geological Survey, 
             U.S. Department of the Interior, on H.R. 2057

    Mr. Chairmen and Members of the Subcommittees, I am Chip Groat, 
Director of the U.S. Geological Survey (USGS). I thank you for the 
opportunity to provide the Department of the Interior's (Department) 
views on H.R. 2057, the ``Chronic Wasting Disease Support for States 
Act of 2003.''
    The Department shares your concern regarding the impact of Chronic 
Wasting Disease (CWD) on captive and free-ranging deer and elk and on 
the economies of states and local communities. Increased surveillance 
and awareness have resulted in the identification of this disease in 
free-ranging deer or elk populations in eight states. The detection of 
this disease in additional states increases the urgency of finding 
effective means of control.
    At the outset, I want to say that the Department strongly supports 
the concepts embodied in H.R. 2057, particularly the recognition and 
facilitation of the critical role state wildlife management agencies, 
universities, and non-governmental organizations (NGOs) play in 
limiting the distribution and occurrence of CWD. However, we note that 
several of its provisions direct the Secretary to carry out programs 
which appear, at least in part, duplicative of ongoing efforts within 
the Department. Moreover, the new funding required for implementation 
must compete with other priorities in the context of the President's 
Budget.
Recent Departmental Accomplishments
    The Department manages roughly one in every five acres of land in 
the United States and has a variety of stewardship responsibilities for 
natural resources on these lands Through the National Park Service 
(Park Service), the U.S. Fish and Wildlife Service (Fish and Wildlife 
Service), the Bureau of Land Management (BLM), and the Bureau of Indian 
Affairs (BIA), the Department provides assistance to, cooperates with 
and, in some cases, co-manages wildlife with states to ensure healthy, 
viable wildlife populations.
    While the Department recognizes that the states possess primary 
responsibility for management of resident fish and wildlife within 
their borders, to successfully combat CWD we must employ an approach 
that recognizes the varied roles of Federal and state agencies In this 
vein, the Department conducts basic and applied research into the 
biology and management of this disease, provides wildlife-related 
laboratory services, and offers technical advice and assistance to our 
partners We recognize that we must also work closely with private 
landowners and incorporate their needs into surveillance strategies and 
outbreak responses.
    In an effort be good neighbors, proper land stewards, and to 
provide assistance to the states, the Administration requested a total 
of $3.8 million in their Fiscal Year 2004 budget request for CWD 
efforts If funded at the requested level, USGS will expand research and 
deliver technical assistance and pertinent biological information about 
the disease to both Federal and state agencies The Park Service will 
continue monitoring and surveillance and will establish a CWD Response 
Team, modeled after the highly successful exotic plant management 
teams, to continue and expand on its ability to respond quickly and 
professionally to CWD issues in units of the National Park System The 
Fish and Wildlife Service will use requested funding to comply with the 
National Environmental Policy Act and to develop surveillance and 
disease contingency plans for the National Wildlife Refuge System 
(NWRS).
    As a further example of our commitment to cooperation with states 
on this issue, the Department is working with Colorado, Wisconsin, and 
other state fish and wildlife agencies, providing technical assistance, 
manpower, and participating in collaborative research studies For 
instance, USGS recently initiated collaborative research studies with 
the Wisconsin Department of Natural Resources and the University of 
Wisconsin to enhance scientific knowledge about CWD and to assist in 
the development of management strategies During the fall 2002 big game 
hunting season, volunteers from the Fish and Wildlife Service 
contributed over 440 hours of assistance to the State of Colorado by 
gathering data from hunter harvested deer and elk. As a result of 
positive cases of CWD in one elk and two deer in Wind Cave National 
Park, the National Park Service is stepping-up CWD surveillance and 
planning efforts with the State of South Dakota on an elk management 
plan.
    Over the past year, the Department has embarked on an aggressive 
program of research into the biology of CWD, its hosts, and avenues of 
transmission In addition, USGS and its partners are working to develop 
the methods needed to identify diseased animals at pre-clinical stages 
During fiscal year (FY) 2003 alone, USGS is augmenting its ongoing 
program of CWD-related projects with over $1.0 million in new research 
and over $300,000 in new activities initiated in cooperation with 
states This brings the total Fiscal Year 2003 USGS commitment to its 
CWD program to $2.7 million.
    In testimony before this Committee last May, I reported that Rocky 
Mountain National Park was the only unit of the National Park System 
(NPS) that was known to have elk and deer infected with the disease, 
and that Wind Cave National Park in South Dakota was at high risk of 
the disease As noted above, increased surveillance led to the detection 
of CWD in deer and elk at Wind Cave National Park CWD also threatens 
other NPS units--including Dinosaur National Monument in northwestern 
Colorado and Agate Fossil Beds and ScottsBluff National Monuments in 
western Nebraska--due to proximity to wild deer and elk herds where CWD 
has been detected or in nearby facilities for captive rearing of deer 
and elk.
    Based on samples taken in Rocky Mountain National Park, the 
prevalence of infection for deer is calculated at about 5 to 6 percent, 
the same for animals surrounding the park. The prevalence of the 
disease in elk adjacent to the park was estimated by the State of 
Colorado to be between 1 and 4 percent and is likely similar within the 
park. The park is continuing tactical management activities for CWD, 
and is continuing collaborative efforts on research and joint strategy 
development with the Colorado Division of Wildlife (CDOW). In addition, 
the park is removing deer and elk with clinical signs of the disease, 
as well as deer that test positive for CWD using tonsillar biopsy. The 
Park Service has also entered into an agreement with Colorado State 
University to fund a Chronic Wasting Disease Coordinator to assist high 
risk parks in planning, sample collection and diagnostics, management, 
and research of CWD over a 2-year period.
    Finally, the Department has also worked in conjunction with the 
Department of Agriculture, as well as universities, state wildlife 
management agencies, and agricultural agencies, to develop a 
coordinated management approach to addressing CWD. This approach, 
released in June 2002, includes, among other things, surveillance, 
diagnostic, and research action items.
    The recent detection of CWD in free-ranging deer in additional 
states points to the need for continued Federal, state, and tribal 
coordination in efforts to manage this disease. H.R. 2057 attempts to 
addresses this need by directing the Department, through the USGS, to 
undertake work on several fronts that are important to limiting the 
distribution and occurrence of CWD. I am proud to inform the Committee 
that we have already initiated work on several of these important 
initiatives.
Departmental Views on H.R. 2057
    Section 101(a) of H.R. 2057 directs the Secretary of the Interior 
(Secretary), through the USGS and using existing authorities, to 
establish and maintain a national database for CWD-related information, 
and to include surveillance and monitoring data for both wild and 
captive animal populations that is collected by Federal agencies, 
foreign governments, Indian tribes, and state agencies that receive 
assistance under the proposal. This database would be made available to 
government agencies attempting to manage and control CWD, universities 
and other public and private institutions conducting research on CWD, 
and cooperating international wildlife authorities.
    The Department supports the development of a national database, 
because the need for sharing information is critical to making 
informed, science-based, management decisions. This database will take 
full advantage of our existing capabilities in biology, mapping, and 
scientific database development. Maintaining CWD-related data on both 
wild and captive populations will facilitate integrated analyses and 
allow practical ``lessons learned'' in diagnosis, surveillance, and 
control to be shared rapidly among a wide range of users. In fact, 
through its National Biological Information Infrastructure, the USGS 
has recently implemented a prototype Wildlife Disease Information 
Network to develop a CWD national data repository for scientific, 
technical, and geospatial information. Contributed CWD data will be 
collected through state and Federal agencies, tribes, and other 
sources. However, in terms of the database suggested by this 
legislation, we believe that it should be developed in coordination 
with Department of Agriculture, which has oversight responsibility for 
captive cervids.
    Under the provisions found in section 102 of H.R. 2057, USGS is 
charged with developing, using existing authorities, a national CWD 
surveillance and monitoring program in cooperation with state and 
tribal agencies and in coordination with the Department of Agriculture. 
The Department is also to provide financial and technical assistance to 
states and tribes to implement the program for wild herds of deer and 
elk.
    The Department views this program as an important component of a 
national strategy to identify the rate of CWD infection in wild herds, 
the geographic extent of its spread, and potential reservoirs of 
infection and mechanisms promoting the spread of CWD. In fact, on May 
1, 2003, the USGS released a report called ``Surveillance Strategies 
for Detecting CWD in Free-Ranging Deer and Elk.'' The 41-page document 
is the culmination of a 3-day interdisciplinary, interagency workshop 
held at the USGS National Wildlife Health Center in Madison, Wisconsin. 
This document is the first tool of its kind, and it provides general 
guidance on the development and conduct of scientifically sound 
surveillance programs to detect CWD in free-ranging populations of both 
deer and elk.
    The Department's extensive scientific resources provide us with the 
ability to synthesize data from multiple sources and conduct local, 
regional, and national analyses, as needed. As you can see, we believe 
that the Department's role in providing technical assistance and 
coordinating surveillance and monitoring efforts is both appropriate 
and essential.
    Section 103 directs the Secretary to allocate funds directly to 
state and tribal wildlife agencies for the purpose of developing and 
implementing CWD management strategies. The criteria provided for the 
allocation of funds address the need to prioritize this financial 
support based on the relative rate of incidence, state and tribal 
financial commitment to CWD programs, integration of state or tribal 
agency policies related to CWD management, and the need to respond 
rapidly to disease outbreaks in new areas of infection. The grant 
program authorized by this section appears duplicative of the Fish and 
Wildlife Service's state wildlife grants, and the administration of 
these grants does not fit within the USGS's mission.
    Finally, section 104 directs the Secretary to expand and accelerate 
research, through USGS, regarding detection, genetic resistance, tissue 
studies, and environmental studies of CWD. We believe that the 
Department's role in providing basic and applied research is both 
appropriate and essential to understanding and managing this disease.
Conclusion
    The Department's traditional stewardship role and cooperative 
relationship with states and other partners make it ideally situated to 
facilitate development of a coordinated strategy to combat CWD. We 
fully support the concepts advanced by H.R. 2057--recognition of state 
roles and responsibilities in the management of resident wildlife 
populations; the Department's scientific and technical expertise and 
ability to coordinate across an array of interested partners--and 
pledge to work with the Committee to ensure that our resources and 
authorities are used in the most efficient manner in addressing CWD in 
free-ranging cervids.
    Mr. Chairmen, this concludes my written statement and I will be 
pleased to respond to any questions you might have.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Groat, and I again reemphasize 
the comments you made about--and as Mr. Green made earlier--and 
that is the emphasis on the States and their lead. They are the 
people who have their hands on every day of the week. So I 
appreciate your comments.
    Mr. Acord, you may proceed.

   STATEMENT OF BOBBY ACORD, ADMINISTRATOR, ANIMAL AND PLANT 
   HEALTH INSPECTION SERVICE, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Acord. Thank you, Mr. Chairman, and members of the 
Subcommittee. Thank you for the opportunity to speak with you 
today regarding the U.S. Department of Agriculture's views on 
H.R. 2057, a bill to provide for multi-agency cooperative 
efforts to combat chronic wasting disease.
    I would like to start off my testimony with a quick 
announcement. The USDA recently made $4 million available to 
assist State Wildlife Agencies in addressing CWD. We are happy 
to announce that we have just approved Colorado's surveillance 
plan for CWD in wild populations.
    And following the funding formula that we developed in 
conjunction with the International Association of Fish and 
Wildlife Agencies, we are right now working to transfer 
$218,750to the States so that they can begin that work. And I 
know that Russ will appreciate that.
    Mr. McInnis. Mr. Acord, we can grant unanimous consent for 
you to sit up here, too, if you would like. Thank you. We 
appreciate that.
    Mr. Acord. As you know, CWD is a transmissible spongiform 
encephalopathy or TSE of deer and elk, in the same family of 
disease as bovine spongiform encephalopathy or BSE, and 
scrapie.
    it was just about a year ago I think that Dr. Jim Butler 
updated you on our efforts to manage CWD in deer and elk. Many 
things have moved forward since 2002, and I would like to take 
a moment to discuss some of these with you.
    To ensure a coordinated and cooperative approach in 
assisting States, a task force, including USDA and the 
Department of the Interior, along with State Fish and Wildlife 
Agencies, Departments of Agriculture, Universities, drafted a 
national management plan for assisting States, Federal 
Agencies, and tribes, in managing CWD in wild and captive 
cervids.
    The plan was shared with Congress, I think, in June of last 
year. With input from the industry and States, the USDA is 
developing a national voluntary herd certification program to 
eliminate CWD from farm cervids.
    Although initially aimed at farmed elk, the program will 
not include susceptible farmed deer species as well. We are 
planning for an implementation to occur by the end of this 
year.In addition, USDA continues to pay for all laboratory 
costs associated with CWD in testing the farm cervid 
population.
    Positive and exposed farm cervids are eligible for 
indemnity, and USDA also pays the cost for depopulation and 
disposal. The USDA has also moved ahead in assisting States to 
deal with the wildlife aspect of the disease. In 2003, USDA 
received $14.8 million for CWD in captive and wildlife, or in 
free-ranging populations.
    As I mentioned earlier, we are providing $4 million of this 
to the States, and a detailed breakout of how the $14.8 million 
was spent is available for your review. As a matter of fact, I 
believe that we have shared it with you already.
    USDA has also paid laboratory costs for hunter surveillance 
testing from the 2002 and 2003 hunting season for all States 
submitting approved surveillance plans. In addition our 
wildlife services program is working closely with several 
states, including Colorado, Illinois, Wisconsin, and others, to 
assist them in their surveillance of monitoring the wild 
population.
    Our personnel have assisted in harvesting deer for test 
samples and have also guided landowners in the removal of deer 
from their property. Testing has also been an important issue 
related to CWD, and with the increased testing for CWD, 
laboratory capacity has been an issue.
    We realize that increased testing capacity was necessary 
and expanded the number of laboratories that we would be able 
to use to run the IHC or the Immunohistochemistry assay for 
CWD. We now have 26 laboratories that can run the IHC test. The 
estimated capacity is now at a quarter-of-a-million samples, 
more than adequate to meet the current demand.
    This past year has also seen progress on the development of 
new tests. Our center for veterinary biologics recently 
approved two new diagnostic kits, one for use on elk, mule 
deer, and pot-tail deer, and another has been approved for mule 
deer and white-tailed deer.
    These tests run on a system that allows multiple samples to 
be processed at once. Until further data can be obtained on 
their effectiveness, IHC still remains the international 
recognized standard, or the gold standard, for this particular 
kind of testing.
    Research continues to be an important part of our activity 
here. We continue to work with the Agriculture Research 
Service, the Cooperative State Research Service, as well as our 
national wildlife research center, is doing a number of pieces 
of research on this.
    As you can see, USDA has been moving steadily forward on 
its program to combat CWD. However, we feel that even though 
2057 has good intent, much of what is required in the bill is 
already being done.
    For example, the bill requires that Federal facilities be 
upgraded to facilitate the processing of samples from 
surveillance and monitoring. As stated earlier, we have the 
capacity to run 250,000 samples now.
    The bill also requires that an official data base for CWD 
reside with DOI, including information on the farm cervid 
population. Under the Animal Health Protection Act, the USDA 
has the lead, or is the lead department for livestock diseases. 
We do not believe that a data base for livestock should reside 
at the Department of Interior.
    CWD is an important issue to USDA. There is a lot of work 
being done and it will continue. And with our working together 
with our Federal and State counterparts, we can get a handle on 
this disease.
    And I would also just conclude by saying that I think that 
we have had a wonderful working relationship with the State 
Fish and Wildlife agencies, particularly with the International 
Association of Fish and Wildlife Agencies, that has provided a 
lot of leadership on this issue.
    We look forward to continuing that good work. Thank you, 
Mr. Chairman. That concludes my remarks and my statement will 
be submitted for the record.
    [The prepared statement of Mr. Acord follows:]

  Statement of Bobby R. Acord, Administrator, Animal and Plant Health 
   Inspection Services, U.S. Department of Agriculture, on H.R. 2057

    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to speak with you on behalf of the U.S. Department of 
Agriculture (USDA) about H.R. 2057, a bill to provide for a multi-
agency cooperative effort to combat chronic wasting disease (CWD).
    CWD is a transmissible spongiform encephalopathy (TSE) of deer and 
elk, in the same family of diseases as bovine spongiform encephalopathy 
(BSE) and scrapie. It has been diagnosed in farmed elk and deer herds 
in eight States; known positive or exposed herds remain only in 
Colorado, Minnesota, and Wisconsin. CWD has also been identified in 
free-ranging deer and elk in areas of Colorado, Illinois, Nebraska, New 
Mexico, South Dakota, Utah, Wisconsin, and Wyoming. The origin and mode 
of transmission of CWD are unknown.
    It was just about a year ago that Dr. Jim Butler updated you on our 
efforts to manage CWD in deer and elk. Many things have moved forward 
since 2002, and I'd like to take a moment to discuss some of these with 
you.
    First and foremost is the management plan for CWD. To ensure a 
coordinated and cooperative Federal approach to assisting States, a 
task force including USDA and the Department of the Interior (DOI), 
along with universities and State wildlife management and agriculture 
agencies, drafted a national management plan for assisting States, 
Federal Agencies, and tribes in managing CWD in wild and captive 
cervids. The plan was shared with Congress in June 2002. The plan's 
components include action items for surveillance, diagnostics, and 
research, among other things.
    With input from industry and States, USDA is developing a voluntary 
national herd certification program to eliminate CWD from farmed 
cervids. Although initially aimed at farmed elk, the program will now 
include susceptible farmed deer species. Rulemaking must be completed 
before the plan is implemented and we expect publication of the 
proposal shortly. We are planning for implementation to occur by the 
end of this year. In addition, USDA continues to pay for all laboratory 
costs associated with CWD testing in the farmed cervid population. 
Positive and exposed farmed cervid herds are eligible for indemnity. 
USDA also pays the costs of depopulation and disposal. Our goal is 
nothing less than eradication of the disease in the farmed cervid 
population.
    USDA has also moved ahead in assisting the States to deal with the 
wildlife aspect of the disease. In Fiscal Year 2003, USDA received 
$14.8 million for CWD in captive and wildlife herds. USDA recently made 
$4 million of that available to assist State wildlife agencies in 
addressing CWD. Funding is being distributed according to a formula 
developed in conjunction with the International Association of Fish and 
Wildlife Agencies. Under this formula, States are classified according 
to tiers. Tier 1 States, which have known occurrences of CWD in free-
ranging cervids as of March 1, 2003, are eligible for the highest sums. 
States falling in the Tier 2 and 3 are eligible for lower amounts. A 
detailed breakout of the $14.8 million is available for your review.
    USDA has also paid laboratory costs for hunter surveillance testing 
from the 2002-03 hunting season for all States submitting approved 
surveillance plans.
    In addition, our Wildlife Services program is working closely with 
several States, including Colorado, Illinois, and Wisconsin, to assist 
them in the surveillance and monitoring of deer in the wild population. 
Our personnel have assisted in the harvesting of deer for test samples, 
and have also guided landowners on the removal of deer from their 
property.
    Testing has also been an important issue related to CWD. With the 
increased testing for CWD, laboratory capacity has been an issue. USDA 
realized that an increased testing capacity was necessary and expanded 
the number of laboratories that would be able to run the 
immunohistochemistry (IHC) assay for CWD. We now have 26 laboratories 
that can run the IHC test; the estimated capacity is now a quarter of a 
million samples, more than adequate to meet current demand.
    Official diagnosis of CWD continues to be performed exclusively by 
Federal and State regulatory agency laboratories and this remains the 
current USDA policy. With ever-increasing international trade, it is 
essential that we can guarantee the integrity of our diagnostic 
laboratory network in the United States. A ``false positive'' for any 
disease, not just CWD, could result in unnecessary public concern and 
costly regulatory action. And in the case of a disease like bovine 
spongiform encephalopathy, a false positive could be devastating, 
costing the U.S. economy billions of dollars in unnecessary domestic 
and international market disruption from which it could take years to 
recover.
    This past year has also seen progress in the development of new 
tests. Our Center for Veterinary Biologics (CVB) recently approved two 
new diagnostic test kits: one for use on elk, mule deer, and white-tail 
deer and another kit that has been approved for mule deer and white-
tailed deer. These new tests run on an ELISA system, which allows more 
samples to be processed at once. Until further data can be obtained on 
their effectiveness, IHC remains the internationally recognized method 
of choice. CVB officials are also reviewing a number of other test kits 
and have placed a high priority on the evaluation of CWD test kits.
    Research into the area of CWD has continued as well. Our National 
Wildlife Research Center (NWRC) is researching the possibility of 
vaccines for CWD. NWRC is also continuing to research ways to identify 
improved barriers and repellents to keep wild deer and elk separated 
from captive cervids and other livestock. This research is being 
conducted to control bovine tuberculosis, but much of the information 
will apply to CWD. NWRC also plans to examine new decontamination 
methods for CWD-affected facilities
    The Agriculture Research Service has also undertaken several 
projects, including assessing the interspecies transmission of TSEs 
among livestock species and cervids, assessing herbivore susceptibility 
to TSE, and identifying and developing new methods for detecting prion 
protein molecules in the environment and feedstuffs.
    The Cooperative State Research Education and Extension Service is 
also continuing to support research projects through both competitive 
and formula-funded programs to determine the causes and methods of 
control for CWD. In Fiscal Year 2002 the National Research Initiative 
Competitive Grant Program awarded $250,000 to Case Western Reserve 
University to understand how CWD causes disease and is transmitted 
between animals. The University of Wisconsin has dedicated resources 
from its CSREES-supported Agricultural Experiment Station to the 
management of white-tailed deer, with a special emphasis on CWD. The 
National Research Initiative once again requested proposals related to 
CWD in fiscal year 03, and at this time staff is currently reviewing 
proposals.
    As you can see, USDA has been moving steadily forward on its 
program to combat CWD. However, we feel that even though H.R. 2057 has 
good intent, much of what is required in the bill is already being 
done. The bill, if passed, requires that USDOI and USDA conduct certain 
activities regarding CWD. The USDOI activities include a national 
database for wild and captive cervid information, surveillance and 
monitoring programs in wild populations, money for State programs, and 
the expansion of USGS research. In total, the bill authorizes $17.5 
million for USDOI activities.
    The USDA activities include the development of a surveillance and 
monitoring program, and the expansion of diagnostic testing capability 
and ARS and CSREES activities. In total, the bill authorizes $9.5 
million for USDA activities. The bill also requires USDA and USDOI to 
enter joint rulemaking when promulgating rules to implement the Act.
    Again, we agree with the intent of the bill, which is to establish 
a program to combat CWD. However, many aspects of the program are 
already in place at USDA. In addition, the bill does not take into 
account changes that have been made to the USDA program in the past 
year.
    For example, the bill requires that Federal facilities be upgraded 
to facilitate the timely processing of samples from the surveillance 
and monitoring. As stated earlier, we currently have the capacity to 
run 250,000 samples and USDA is working to expand testing capacity for 
all TSEs, which would also benefit CWD. We should also point out that 
because the States have not submitted as many wild cervid samples as 
APHIS had anticipated, $500,000 that was allocated for testing is being 
used to set up cooperative agreements with Tribal Nations.
    The bill also requires that the official database for CWD reside 
with DOI, including information on the farmed cervid population. Under 
the Animal Health Protection Act, USDA is the lead Department in 
livestock diseases. We do not believe that a database for livestock, 
such as farmed cervids, should reside with another Department, 
especially since we must be conscious of the privacy concerns of 
producers. In addition, we are currently working with industry on an 
animal identification program for livestock; both the North American 
Deer Farmers Association and the North American Elk Breeders 
Association have been a part of that process. We are concerned about 
the impact that this provision may have on a livestock animal 
identification program.
    CWD is an important issue to USDA. There is a lot of work being 
done and it will continue as we implement our herd certification 
program and expand our testing capabilities. By continuing to work 
together with our Federal and State counterparts, we can get a handle 
on this disease.
    Thank you for the opportunity to comment.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. Acord.
    Mr. George, you may proceed.

          STATEMENT OF HON. RUSSELL GEORGE, DIRECTOR, 
       STATE OF COLORADO DEPARTMENT OF NATURAL RESOURCES

    Mr. George. Thank you, Mr. Chairman, and members of the 
Committees. I am Russell George, Director of the Colorado 
Division of Wildlife. I appreciate the opportunity to be here 
this morning to talk about the potential for increased Federal 
assistance to the States to manage chronic wasting disease.
    I appreciate the support and leadership of Congress on this 
subject of chronic wasting disease, and as you can imagine, it 
is of utmost importance to us in the State of Colorado. We are 
uniquely positioned to take advantage of any Federal grants or 
other assistance relative to managing and studying the disease.
    Thus far our State agencies have invested heavily in 
tackling the challenge of CWD, and we have done so largely with 
State funds, especially using revenues that we receive from the 
sale of hunting licenses. So we can welcome and can use 
increased Federal financial support.
    This is why I especially applaud Chairman McInnis' bill for 
two particular reasons. One is that it provides significant new 
funds for State wildlife managers, and second, it asserts the 
primacy of the States in policymaking authority with regard to 
wildlife management, both in general terms and specifically 
with respect to chronic wasting disease.
    We have been concerned with the second point of State 
primacy and wildlife management has often been overlooked by 
some Federal agencies. States that have had outbreaks of 
chronic wasting disease, such as Colorado and Wisconsin, have 
aggressively responded to the threats that it poses to 
wildlife, both free roaming and captive.
    States should continue to remain at the forefront of 
preventing or responding to chronic wasting disease. What 
States like Colorado really need from the Federal Government 
are additional resources, and not new programs or institutions. 
The needs of the Colorado Division of Wildlife, the Colorado 
Department of Agriculture, and Colorado State University, are 
extensive and beyond the ability of the State to fully fund.
    Federal assistance is crucial at this time. The knowledge 
that we have gained and the programs that we have initiated in 
Colorado are often used as a model for other States who are 
just starting to respond to chronic wasting disease issues.
    The innovative and aggressive approach that Colorado has 
taken allows other States to save their scarce funds and 
limited personnel time by enabling them to focus on 
initiatives, technologies, and approaches that we have 
demonstrated already to be effective.
    Let me take a moment to highlight specifically actions 
taken by Colorado over the past 2 years in response to the 
spread of chronic wasting disease. First and foremost, we have 
coordinated with local governing authorities and private 
landowners to reduce deer populations in areas of especially 
high prevalence.
    Secondly, we have significantly redirected existing funding 
and personnel to chronic wasting disease control efforts, and 
the numbers themselves are important for me to share with 
you.Two years ago, we were investing around $700,000 in the 
work that we were doing on chronic wasting disease.
    This year's budget will be nearly $4 million. So in 2 
years, going on to the third year, we would have jumped from 
$700,000 to near $4 million. This is hunter paid license fees 
and revenues that the State of Colorado is investing in this 
issue. There is no question that we take chronic wasting 
disease as a most serious threat.
    By the way, $4 million is about 4 percent of our budget to 
invest in one issue, one disease, and this takes away from all 
the other things that we are called upon to do as the State's 
wildlife managers.
    Increased coordination and cooperation between agriculture 
public health, and environment, public State university, and 
the Division of Wildlife, we have learned in Colorado how to 
overcome our historical and jurisdictional institutional 
barriers among these entities.
    We think that having overcome these barriers is a model 
that the Federal agencies can follow. We believe that since we 
have done it that the Federal agencies can overcome those 
traditional barriers as well.
    We have created eight new positions in the Colorado 
Division of Wildlife devoted solely to chronic wasting disease. 
We have a field coordinator for culling activities, a State-
wide wildlife disease coordinator, staff veterinarian, four lab 
technicians, and a lab supervisor, for new wildlife health 
unit.Again, all using hunting license fee revenues.
    Eight new people may not sound much, but when you 
understand that there have been no new FDEs created anywhere in 
State government in Colorado for a number of years, you can see 
that the State also generally recognizes the importance of the 
work that the Division of Wildlife is doing.
    In the few moments I have left, let me focus upon what we 
would like you to help us do. First of all, we need to upgrade 
certified labs. We think that $3-1/2 million of Federal funds 
will help us to do that, particularly to build a new diagnostic 
lab at Colorado State University that can be shared by the 
Division of Wildlife, the Department of Agriculture, and the 
University Veterinary Diagnostic Laboratory.
    We would expect to find $4 million to upgrade disposal 
processes at four sampling/testing facilities. The key to 
dealing with chronic wasting disease, wherever it is, is to 
test sufficiently to know everywhere it is, and to what degree 
it exists.
    So the more testing that we can do across every State, the 
more we can know about that. Colorado jumped from 5,000 tests 
statewide a year ago, to 27,000 tests this past year. We intend 
to step that up again to as much as 40,000 tests.
    And the other thing that has happened is that we have moved 
getting the timing for the results from 6 months down to 2 
weeks. For us to provide good customer service and good 
science, we needed to know exactly and quickly whether the 
animals were positive or negative.
    Research. There is no question that we need more research. 
We would ask for $2 million for research on therapeutics, live 
animal diagnostics, environmental detection, field diagnostics, 
genetic resistance, and enhanced rapid laboratory tests.
    Surveillance monitoring and management of wild deer and elk 
needs to occur, and surveillance monitoring and management of 
captive deer and elk must also occur. Some of this can be done 
together and some of it must be done separately. So we like to 
focus on both.
    Finally, education and outreach. You all know the 
importance of telling the public everything that we know and 
telling them as quickly as we know it what there is to learn 
from this.
    The public cares a great deal about TSEs, and our 
responsibility is to be as accurate and as open about that as 
we can, and that takes time and resources to do it. My time is 
up. Let me just say again that we support the International 
Association of Fish and Wildlife Agencies on the position that 
they, and where they have helped us.
    We support the comments from Wisconsin. The main thing I 
want to say is that we are dealing with a disease here. Time 
matters. The sooner we get on this, learn what we can about it, 
the sooner the opportunity we can get our arms around it, 
contain it, and maybe eventually eliminate it.
    Thank you, Mr. Chairman. I have used the time. My formal 
statements will be offered for the record.
    [The prepared statement of Mr. George follows:]

     Statement of Russell George, Director, Division of Wildlife, 
         Colorado Department of Natural Resources, on H.R. 2057

    Good morning, Mr. Chairman. I am Russell George, Director of the 
Colorado Division of Wildlife. Thank you for the opportunity to appear 
before you today to share my thoughts about the potential for increased 
Federal assistance to States attempting to manage Chronic Wasting 
Disease, commonly referred to as CWD. I appreciate the support and 
leadership of Congress on the subject of CWD, an issue of considerable 
importance to the State of Colorado.
    Colorado is uniquely positioned to take advantage of any Federal 
grants or other assistance relative to managing and studying this 
disease. Thus far, our state agencies have invested heavily in tackling 
the challenge of CWD and we have done so largely with state funds, 
especially revenues derived from the sale of hunting licenses. 
Therefore, we welcome increased Federal financial support.
    That is why I especially applaud Chairman McInnis' bill. It 
provides significant new funds for state wildlife managers and it 
asserts the primacy of the States in policy-making authority with 
regard to wildlife management, both in general terms and specifically 
with respect to CWD. We have been concerned that this point has been 
overlooked too often by some Federal agencies.
    States that have had outbreaks of CWD, like Colorado and Wisconsin, 
have aggressively responded to the threats it poses to wildlife, both 
free-roaming and captive. States should continue to remain at the 
forefront of preventing or responding to chronic wasting disease. What 
states like Colorado really need from the Federal Government are 
additional resources, not new programs or institutions.
    The needs of the Colorado Division of Wildlife, the Colorado 
Department of Agriculture (CDOA) and Colorado State University (CSU) 
are extensive and beyond the ability of the state to fully fund. 
Federal assistance is crucial at this time. The knowledge that we have 
gained and the programs we have initiated in Colorado are often used as 
a model for other states just starting to respond to CWD issues. The 
innovative and aggressive approach that Colorado has taken allows other 
states to save scare funds and limited personnel time by enabling them 
to focus on initiatives, technologies and approaches that we have 
demonstrated to be effective.
    I would like to take a moment to highlight some of the actions 
taken by Colorado over the past two years in response to the spread of 
CWD. We have:
    <bullet> LCoordinated with local governing authorities and private 
landowners to reduce deer populations in areas of especially high 
prevalence.
    <bullet> LSignificantly redirected existing funding and personnel 
to CWD control efforts.
    <bullet> LIncreased coordination and cooperation between the CDOA, 
Colorado's Department of Public Health and the Environment, CSU and the 
Division of Wildlife on CWD issues.
    <bullet> LCreated 8 new positions devoted to CWD within the 
Division of Wildlife (a field coordinator for culling activities, a 
statewide wildlife disease coordinator, a staff veterinarian, 4 lab 
technicians and a lab supervisor for a new wildlife health unit--all 
using hunting license fee revenues).
    In addition, we joined with CSU and CDOA, to implement an extensive 
CWD surveillance and testing program for wild elk and deer. Members of 
the Colorado Veterinary Medical Association and volunteers from several 
Federal agencies, conservation organizations and the general public 
also provided significant assistance. With this cooperation, we were 
able to offer statewide testing of hunter-killed deer and elk while 
validating a new rapid test that provided results in hours instead of 
months and allowed for large-volume testing. As a direct result of our 
experience, we understand that the new test is now being considered by 
the USDA and Canada for screening large numbers of cattle for Bovine 
Spongiform Encephalopathy (BSE).
    With this integrated effort, we succeeded in testing more than 
27,000 wild deer and elk for CWD with most results available within two 
weeks of receipt of the sample. The CDOA and the Division of Wildlife 
continue to coordinate, develop, and adopt comprehensive regulations 
that govern the importation, intrastate transportation and surveillance 
of captive deer and elk. As you can see, we already have in place 
programs to monitor and manage CWD.
    Despite the unprecedented actions taken by Colorado and other 
states, it is clear much more work remains to be done. What we need 
most are additional financial resources with few strings attached. 
Federal funding for this work is a wise investment. We already have a 
proven track record of success.
    In concert with CDOA and CSU, Colorado has identified several 
initiatives and program that are in need of additional support. Those 
needs include:
Upgrading Certified Labs
    $3.5 million to initiate the planning and construction of a new 
diagnostic lab on the CSU campus in Fort Collins that has the potential 
to share laboratory space and equipment and co-house staff from the 
CDOW, the CDOA and the University Veterinary Diagnostic Laboratory, a 
CWD-certified testing laboratory. A proposed program plan (that 
currently includes CSU and CDOA in one new building) has already been 
approved by the CSU Board of Governors and awaits funding to proceed.
    $4 million to upgrade disposal processes at four CWD sampling/
testing facilities--in Grand Junction, Craig, Fort Collins and Rocky 
Ford. I would like to emphasize that these upgrades will be necessary 
if regulations under consideration by Region 8 of the U.S. 
Environmental Protection Agency (EPA) are imposed. The regulations 
would govern our CWD labs' waste streams and our methods of carcass 
disposal. We urge the EPA to proceed slowly and cautiously, and only 
after consulting with external third party prion disease experts, other 
Federal agencies and all potentially affected states (including their 
wildlife, public health and agriculture agencies).
Research
    $2 million for research on therapeutics, live animal diagnostics, 
environmental detection, field diagnostics, genetic resistance and 
enhanced rapid laboratory tests.
    $5 million to relocate and upgrade our live animal research 
facility. The existing facility is located on property that is under a 
lease that will expire soon and is not likely to be renewed by the 
property owner. This project will provide several Colorado institutions 
the capability to continue a strong tradition of collaborative animal 
research.
Surveillance, Monitoring and Management of Wild Deer and Elk
    Colorado needs assistance with our annual expenses directly related 
to CWD operations (expanded surveillance, testing, reporting, culling, 
carcass disposal, etc.). Expenditures are estimated to be about $3 
million in the coming state fiscal year.
Surveillance, Monitoring and Management of Captive Deer and Elk Herds
    We estimate Colorado would require $150,000 for detecting, 
measuring and monitoring incidence of CWD in captive Colorado herds. We 
also anticipate needing as much as $1 million for reducing the 
incidence of CWD in captive herds (depopulation, indemnification, and 
carcass disposal).
Education and Outreach
    Finally, states like Colorado need money for the development of 
brochures, fact sheets, videos, training clinics, website enhancement, 
etc. for agency staff, hunters, veterinarians, meat processors, 
taxidermists, conservation groups and the general public.
    As I conclude, I feel it is important to note that the Colorado 
Division of Wildlife anticipates spending an estimated $3 million on 
chronic wasting disease-related actions in our upcoming fiscal year 
which begins on July 1, 2003. To enable us to accomplish this, our 
state legislature authorized us to use funds from our dwindling reserve 
balance. We are doing so in addition to diligently reprioritizing 
existing resources, at the expense of other programs, for CWD work.
    H.R. 2057 would authorize programs that could help Colorado, and 
many other states, meet the significant challenges presented by CWD. My 
state has been at the forefront of efforts to understand and control 
CWD in the wild. We have made tremendous progress in those efforts, but 
we are at the point that Federal assistance is urgently needed to help 
us, and a growing number of other states, respond to CWD.
    In summary, I would like to emphasize that there are many 
opportunities for the Federal Government to assist States in CWD 
management and research. I urge congressional support for legislation 
and funding that will allow Colorado's needs to be met. I also urge you 
to consider the most streamlined and efficient mechanisms for making 
such funding available, including grant programs already well-
established.
    Thank you, Mr. Chairman, for the opportunity to share my thoughts 
with you and your distinguished colleagues. Colorado's deer and elk are 
among our state's most treasured natural resources. Your efforts to 
help us protect this valued resource are greatly appreciated.
    I would be pleased to answer any questions you might have.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. George.
    Mr. Taylor, you may proceed.

      STATEMENT OF GARY L. TAYLOR, LEGISLATIVE DIRECTOR, 
   INTERNATIONAL ASSOCIATION OF FISH AND WILDLIFE AGENCIES, 
ACCOMPANIED BY DR. JOHN FISHER, SOUTHEAST COOPERATIVE WILDLIFE 
                         DISEASE STUDY

    Mr. Taylor. Thank you, Mr. Chairman, for the opportunity to 
share with you the Association's perspectives on the management 
of chronic wasting disease. Also for permitting Dr. Fisher, who 
chairs the Association's Fish and Wildlife Health Committee, to 
join us at the witness table.
    As you know, all 50 State Fish and Wildlife Agencies are 
members of the Association. The Association looks forward to 
continuing to work with you, and in particular to provide the 
State and Federal agencies with the fiscal resources that they 
need to manage this disease.
    Further, we continue to urge that decisions with respect to 
the management of this disease be well grounded in science. And 
finally we see the need for even more comprehensive Federal 
agency cooperation and coordination to effectively manage this 
disease.
    Let me start by commending Chairman McInnis, Congressman 
Kind, Congressman Ryan, Congressman Green, and others, in 
particular for your diligence in ensuring that a coordinated 
Federal and State effort is directed at this issue. What is 
most needed are adequate Congressional appropriations to the 
Federal agencies for both their efforts and to pass through to 
the State Fish and Wildlife Agencies, State universities, and 
State Departments of Agriculture, to manage chronic wasting 
disease.
    The Association looks forward to working with you to 
increase appropriations for these purposes. As Bobby Acord 
shared with you about the national plan, under his 
chairmanship, and that of Steve Williams, Director of the U.S. 
Fish and Wildlife Service, they quickly recognized the need for 
adding State Fish and Wildlife Agency representatives to the 
Federal Task Force.
    That was expeditiously done and six working groups, 
comprised of Federal, State, and university representatives, 
ultimately drafted a national plan that the task force released 
to the public in June of 2002.
    The plan proposes goals and serves as a blueprint for 
future activities to identify the extent of the disease and 
management actions needed to eliminate or prevent its 
spread.Let me commend Chairman McInnis and others for acting as 
a catalyst to get this done; Bobby Acord and Steve Williams, 
for their patience and vigilance in overseeing it, and all of 
the task force participants for their dedication and diligence 
in completing the plan.
    Subsequently an implementation documentation for this plan 
was produced in October of 2002 by a team of three State Fish 
and Wildlife Agency representatives, four USDA, and four USDI 
representatives working with input from a myriad of wildlife 
management and animal health professionals from across the 
Nation.
    The implementation document steps down the goals in the 
national plan to action items, and it assigns agency 
responsibilities, and identifies time lines and budgets for 
each of the six categories of diagnostics, disease management, 
communications, research, surveillance, and information 
dissemination.
    The implementation plan represents what we believe is the 
best and most current thinking with respect to what is 
necessary to successfully manage this disease. The budget 
recommendations in the plan were thoughtfully constructed under 
the constraint of reasonable and realistic. They are not pie in 
the sky requests.
    As Bobby also indicated, in April of this year, APHIS made 
available $4 million to the State Fish and Wildlife Agencies 
for surveillance and management of chronic wasting disease. As 
he indicated, collectively with APHIS, we arrived at a formula 
that established three tiers of States.
    And while one could argue the need for more money in one 
tier versus the other, we felt that this was equitable, and it 
advanced our knowledge of presence absence of this disease, 
which is one of the most critical pieces of information we 
need, and it assisted the States with the tremendous costs of 
managing this disease.
    The solution of getting more funds to States with chronic 
wasting disease and free-ranging cervids, of course, is to grow 
the appropriated dollars. Let me just now reflect a little bit 
on the need for engaging yet other Federal agencies, and in 
particular the Food and Drug Administration, and the U.S. 
Environmental Protection Agency, in a more coordinated effort 
to manage chronic wasting disease based on sound science.
    In November of last year, and then again more formally in 
May of this year, FDA proposed guidance for the rendering 
industry regarding the use and material from deer and elk in 
animal feed.
    Unfortunately, this draft guidance as currently written 
hinders animal health and wildlife management agency efforts to 
identify new areas where the disease occurs and it 
simultaneously increases, rather than decreases, the likelihood 
of chronic wasting disease positive carcasses entering the non-
ruminant animal food chain.
    The Association believes that the draft guidance is an 
overreaction and simply cannot be supported with good science. 
In addition to the inaccurate message, we are concerned about 
recommendations in the draft guidance that would trigger a 
recall of feed or feed ingredients containing material from a 
CWD positive animal.
    This actually hinders our ability to find new areas where 
the disease occurs, because it promotes avoidance of chronic 
wasting disease testing, thereby increasing the chances for the 
disease to go undetected, and positive animals to enter the 
animal feed system.
    Early detection offers greater opportunities to eliminate 
the disease, and early detect depends on the cooperation of 
hunters, meat processors, taxidermists, and renders. 
Unfortunately, the draft guidance we believe perpetuates a 
highly undesirable situation that inhibits this cooperation.
    Finally, we would like to express our concerns about some 
draft recommendations that EPA has been working on in their 
Region 8 office that could likewise seriously impede our 
ability to detect and manage the disease in wild and captive 
cervids.
    The proposal would require certain standards and permits 
for treatment of waste water from lab facilities handling 
animals, or samples from animals, with the disease. Labs 
wishing to continue or initiate work with chronic wasting 
disease would incur huge costs to come into compliance, or 
would have to cease their efforts.
    Once again, we believe that this proposal is not science-
based, and would seriously affect the cooperation of hunters, 
meat processors, taxidermists, and renders, thereby impeding 
our ability to detect the disease in a new area.
    Finally on the issue of funding, Mr. Chairman, we all agree 
that more is needed, and we are committed to working with 
Congress to make that happen. With respect to expeditiously 
getting money to the State Fish and Wildlife Agencies, let me 
suggest that you look to agencies that already have existing 
mechanisms and machineries for granting money to the State Fish 
and Wildlife Agencies.
    All of our agencies have a cooperative agreement with APHIS 
for that purpose, and in the Department of the Interior, the 
Fish and Wildlife Service has a longstanding office machinery 
and process for annually granting funds from several different 
programs to the State Fish and Wildlife Agencies.
    We think that there is great utility in using these 
existing grant mechanisms. Thank you again, Mr. Chairman, and 
we look forward to working with you to effectively address 
solutions to this problem.
    [The prepared statement of Mr. Taylor follows:]

          Statement of Gary J. Taylor, Legislative Director, 
 International Association of Fish and Wildlife Agencies, on H.R. 2057

    Thank you, Mr. Chairman, for the opportunity to share with you the 
Association's perspectives on H.R. 2057 and the status of management of 
Chronic Wasting Disease (CWD) in general. I am Gary Taylor, Legislative 
Director of the Association, and accompanying me today is Dr. John 
Fischer, Director of the Southeastern Cooperative Wildlife Disease 
Study, and Chair of the Association's Fish and Wildlife Health 
Committee. All 50 State fish and wildlife agencies are members of the 
Association. The Association looks forward to continuing to work with 
you in particular to provide the state and Federal agencies with the 
fiscal resources that they need to manage this disease. Further, we 
continue to urge that decisions with respect to management of this 
disease be well grounded in science. And, finally, we see the need for 
even more comprehensive (than just USDA and USDI) Federal agency 
cooperation and coordination to effectively manage this disease.
    The International Association of Fish and Wildlife Agencies was 
founded in 1902 as a quasi-governmental organization of public agencies 
charged with the protection and management of North America's fish and 
wildlife resources. The Association's governmental members include the 
fish and wildlife agencies of the states, provinces, and Federal 
Governments of the U.S., Canada, and Mexico. All 50 states are members. 
The Association has been a key organization in promoting sound resource 
management and strengthening Federal, state, and private cooperation in 
protecting and managing fish and wildlife and their habitats in the 
public interest.
    While we are not convinced of the need for further authorizing 
legislation, the Association wishes to commend Chairman McInnis, 
Congressman Kind, Congressman Ryan and others in particular for their 
diligence in ensuring that a coordinated Federal-state effort is 
directed at this issue. What is most needed are adequate Congressional 
appropriations to the Federal agencies involved for both their efforts 
and to pass through to the state fish and wildlife agencies, state 
universities and state agriculture departments, to manage CWD. The 
Association looks forward to working with you to increase 
appropriations for these purposes.
    Let me summarize where we are in management of this disease by 
reflecting on the good progress that has been made over the last year. 
Just a little over a year ago, as a result of a hearing before these 
same two subcommittees, the U.S. Department of Agriculture and U.S. 
Department of the Interior convened a Federal task force to coordinate 
CWD management. Under the chairmanship of Bobby Acord, Administrator, 
APHIS, and Steve Williams, Director, U.S. Fish Wildlife Service, they 
quickly recognized the need for and utility of adding state fish and 
wildlife agency representatives to the Task Force. That was 
expeditiously done and 6 working groups each comprised of Federal, 
state and university representatives, ultimately drafted the national 
plan that the Task Force released to the public (``A Plan for Assisting 
States, Federal Agencies, and Tribes in Managing Chronic Wasting 
Disease in Wildlife and Captive Cervids'') on June 26, 2002. The plan 
proposes goals and actions and serves as a blueprint for future 
activities to identify the extent of the disease and management actions 
needed to eliminate it or prevent its spread. Let me commend Chairman 
McInnis and others for acting as a catalyst to get this done, Bob Acord 
and Steve Williams for their patience and vigilance in overseeing it, 
and all participants for their dedication and diligence in completing 
the plan.
    Subsequently, an Implementation Document for said plan was produced 
on October 11, 2002 by a team of 3 State fish and wildlife agency 
representatives, 4 USDA, and 4 USDI representatives working with input 
from a myriad of wildlife management and animal health professionals 
from across the nation. The Implementation Document steps down the 
goals in the national plan to action items, assigns agency 
responsibilities, and identifies timelines and budgets for each of 6 
categories of diagnostics, disease management, communications, 
research, surveillance, and information dissemination. This 
Implementation Plan effort chaired by Bruce Morrison, NE Game and Parks 
Commission, represents what we believe is the best and most current 
thinking with respect to what is necessary to successfully manage this 
disease. The budget recommendations were thoughtfully constructed under 
the constraint of ``reasonable and realistic''--they are not ``pie in 
the sky'' requests. These budget recommendations are the basis for the 
Association's appropriations request that we have asked each of our 
State Directors to encourage their members of Congress to support.
    In April 2003, APHIS made available $4 Million in Fiscal Year 2003 
appropriated funds to the State fish and wildlife agencies for 
surveillance and management of CWD. In designing the protocol for 
distribution of the funds, APHIS engaged Dr. John Fischer, Dr. Tom 
Thorne (WY Game and Fish Department) and myself to ensure an 
appropriate and effective process. Collectively with APHIS we arrived 
at a formula that established 3 tiers of States: Tier 1 includes states 
with known occurrence of CWD in free ranging cervids; Tier 2 includes 
states adjacent to Tier 1 states or states with known CWD occurrence in 
farmed or captive cervids; and Tier 3 includes all other states. While 
one could argue the need for more money in one tier versus the other, 
we felt this was equitable, advanced our knowledge of presence/absence 
of the disease which is one of the most critical pieces of information 
we need, and assisted with the tremendous cost of managing the disease. 
The solution to getting more funds to states with CWD in free-ranging 
cervids, of course, is to grow the appropriated dollars, a goal to 
which we are all committed. Many thanks to Bob Acord and his staff at 
APHIS for both making these funds available and for enlisting the State 
fish and wildlife agencies in designing an equitable protocol that will 
expeditiously get money to them through a cooperative agreement.
    Let me now reflect a little bit on the need for engaging yet other 
Federal agencies--in particular the Food and Drug Administration and 
the Environmental Protection Agency--in a more coordinated effort to 
manage CWD based on sound science. Attention to all Transmissible 
Spongiform Encephalopathies (TSE) has increased dramatically in the 
last year, not just because of CWD, but most recently due to the 
diagnosis of Bovine Spongiform Encephalopathy (BSE) in a domestic cow 
in Canada. Unfortunately there is a great deal of misinformation and 
anxiety among the general public that may be eliciting ill--founded 
proposals from these Federal agencies.
    In November 2002, and then again more formally in May 2003, FDA 
proposed guidance for the rendering industry regarding the ``Use of 
Material from Deer and Elk in Animal Feed''. Unfortunately, this draft 
guidance, as currently written, hinders animal health and wildlife 
management agency efforts to identify new areas where CWD occurs and it 
simultaneously increases, rather than decreases, the likelihood of CWD 
positive carcasses entering the non-ruminant animal food chain.
    The Association believes the draft guidance is an overreaction and 
simply cannot be supported with good science. CWD is not BSE. BSE is 
known to be a food-borne disease and consumption of material containing 
BSE--contaminated tissues is the only known natural mode of 
transmission of BSE. For this reason, the use of materials derived from 
any ruminant, including cattle, sheep, deer and elk, cannot be fed to 
ruminant animals according to 21CFR589.2000. By contrast, CWD is known 
to be transmitted laterally from affected deer and elk to susceptible 
deer and elk; and there is no evidence CWD is a food borne disease 
transmissible to non-ruminant animals.
    In addition to the inaccurate message it portrays, the Association 
is most concerned about the recommendation in the FDA draft guidance 
that would trigger a recall of feed or feed ingredients containing 
material from a CWD positive animal. This actually hinders our ability 
to find new areas where CWD occurs because it promotes avoidance of CWD 
testing, thereby increasing the chances for CWD to go undetected and 
for positive animals to enter the animal feed system. Experience has 
demonstrated that current CWD surveillance techniques can detect the 
disease in a new area while at relatively low prevalence but it takes 
higher prevalence before discovery if detection is delayed. Early 
detection offers greater opportunities to eliminate the disease and 
early detection depends on the cooperation of hunters, meat processors, 
taxidermists and renderers. This cooperation was severely impacted by 
FDA's action in November 2002, and the draft guidance will perpetuate 
this highly undesirable situation.
    Finally, the Association is concerned about some draft 
recommendations that the USEPA has been working on in their Region 8 
Office that could likewise seriously impede our ability to detect and 
manage CWD in wild and captive cervids. The Region 8 proposal would 
require certain standards and permits for treatment of wastewater from 
laboratory facilities handling animals or samples from animals with 
CWD. Labs wishing to continue or initiate work with CWD would incur 
huge costs to come into compliance or would have to cease their efforts 
related to CWD. Should this come to fruition, the Association is 
concerned that the next application of these standards and permit 
requirements would be to meat processors, taxidermists, and rendering 
plants. Once again, the Association believes this proposal is not 
science-based and seeks to impose a standard of ``no risk'' as opposed 
to acceptable ``low risk''. Action of this type would seriously affect 
the cooperation of hunters, meat processors, taxidermists and renderers 
and thereby impede our ability to detect the disease in a new area. 
Furthermore, these same standards do not now, nor is EPA proposing that 
they apply to scrapie, another TSE that has been around for centuries, 
and for several decades in the United States. While EPA has slowed-down 
the internal process leading to agency endorsement of these 
recommendations pending further discussion with the State Fish and 
Wildlife Agencies, State Departments of Agriculture, and State 
Departments of Environmental Quality, we remain concerned that 
ultimately a regulation would be promulgated that is poorly grounded in 
science.
    Both the FDA and EPA proposals compel the need for greater 
communication and coordination among all of the Federal and state 
agencies involved in managing CWD. We would strongly encourage Bob 
Acord and Steve Williams to convene the Federal task force and invite 
FDA and EPA to participate in a forthright discussion of anticipated 
agency actions on CWD.
    On the issue of funding, Mr. Chairman, we all agree that more is 
needed, and the Association is committed to working with you and 
Congress to make that happen. With respect to expeditiously getting 
money to the state fish and wildlife agencies, we will work with any 
Federal agency, but let me suggest the utility of using an agency that 
has an existing mechanism for getting grant money to the State fish and 
wildlife agencies as the most effective mechanism. As I indicated, 
USDA-APHIS has or is executing cooperative agreements for granting CWD 
dollars to the State fish and wildlife agencies. In the Department of 
the Interior, the USFWS has a long-standing office, machinery and 
process for annually granting funds from several programs to state fish 
and wildlife agencies. It seems to us that using these existing grant 
mechanisms would be the most expeditious way to deliver funds to the 
State fish and wildlife agencies.
    In conclusion, Mr. Chairman, the Association looks forward to 
working with you to improve our capability to manage this disease. We 
sincerely appreciate your support in the past, and I would be pleased 
to answer any questions.
                                 ______
                                 
    Mr. McInnis. Thank you, and once again I thank the panel 
for their testimony. Now what I would like to do--and I will 
begin the process--is to allow the Committee to ask questions 
and have an exchange here for the time that we have remaining.
    I am only going to ask one question in order to transfer 
that time to my colleagues, but Mr. George, and Mr. Taylor, I 
am specifically interested--obviously the Administration is 
supportive of working directly with the States, and my sense is 
that the best thing we can do is kind of exclusively provide 
direct financial assistance, and Mr. George, as you very well 
stated in your comments, and as you and I have discussed in 
numerous conversations.
    In rewriting my legislation, to make a straightforward 
grant and aid program, who would--each of you, if you would 
just give me your suggestion, what agency would be the best 
agency to administer that grant type of program? Mr. George and 
Mr. Taylor, please.
    Mr. George. Thank you, Mr. Chairman. For the Colorado 
Division of Wildlife, I would say it would be the United States 
Fish and Wildlife Service. We have a number of ongoing 
programs. I would venture to say that the relationship between 
Colorado and the region Fish and Wildlife Agency has never been 
better.
    We would welcome the opportunity to add another program. We 
believe that the relationship is such that we could step in 
quickly, file the applications, get the money out and on the 
ground in the front line of the battle. So that would work for 
us.
    Mr. McInnis. Thank you. Mr. Taylor.
    Mr. Taylor. I certainly concur with Director George's 
assessment of the Fish and Wildlife Service. In Interior, for 
Agriculture appropriated dollars, I would strongly suggest that 
it continue to be APHIS, Mr. Chairman.
    Mr. McInnis. Thank you. Mr. Tancredo.
    Mr. Tancredo. I have no questions.
    Mr. McInnis. Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. Mr. Acord, I think you 
have heard over and over again that the critical issue that we 
have is doing what is necessary to get resources out obviously 
to the States.
    You delivered some very good news to our Chairman about 
where things are at with the State of Colorado. Can you tell me 
from the money in last year's Omnibus Bill how much of that 
money is slated to go this year to the State of Wisconsin?
    Mr. Acord. Mr. Chairman, or Mr. Green, I think there is--we 
do not yet have from the State of Wisconsin their request under 
the surveillance plan that we had talked about, and the plans 
that the States were going to submit by July 1.
    We hear from them that they are clearly going to meet the 
July 1 deadline and will have a request. I believe in total 
that they will wind up with somewhere in the neighborhood of a 
half-a-million dollars.
    Mr. Green. But the request has not been made yet?
    Mr. Acord. The request has not been made. We have already 
provided some assistance, but the request has not yet been made 
at this point.
    Mr. Green. But we should get it by July 1st. OK. Can you 
tell me what the turnaround time is then from the time that you 
get such a request to processing it, and getting money out?
    Mr. Acord. Well, we are trying to process the request as we 
get them, and while the deadline is July 1, as we have seen in 
the case of Colorado, we had their plan already, and we acted 
on that based on what we saw in the plan.
    We believe that it will be a matter of just a few weeks 
before we could turn that around, and I think certainly for the 
Tier One States, which is the category that Wisconsin fits 
into, we would move quickly I think on those States to get it 
done.
    Mr. Green. Great. And finally, Mr. George, you began to 
talk about it. As policymakers here, again, what is it that we 
can do to be most effective in assisting States like Colorado 
in fighting this problem?
    Mr. George. Thank you. I would like to recognize that the 
States are on the front line, and that I think that those 
States who are involved have already shown an ability and a 
capacity to deal with this disease but for resources.
    So what we are suggesting is to help us pay the costs. 
Right now we are moving other resources around, and we are not 
doing things that we would otherwise do or should do in 
managing wildlife because we are using our resources to focus 
on this very important task.
    But we need help with those resources. And we would ask 
that you do it in a way that gets it to us quickly and without 
a lot of strings attached. Time matters and money matters, and 
I think if we do this with a good and strong partnership 
between the States and the Federal agencies that we might 
actually have a chance to get ahead of this disease before it 
really gets unmanageable.
    Mr. McInnis. Mr. Udall.
    Mr. Mark Udall. Thank you, Mr. Chairman. I want to begin by 
thanking you for holding the hearing and for the important 
leadership that you have demonstrated on this issue, a great 
concern to Coloradans. I want to thank you for the good work on 
your bill, and I would like to be added as a co-sponsor to your 
important legislation.
    I also want to welcome my good friend, Russ George. It is 
always great to have you here in Washington, although it is a 
long trip, and Colorado in many ways is closer to our hearts. 
But it is great to have you here and to see the leadership that 
you are providing on this important issue.
    Mr. George. Thank you.
    Mr. Mark Udall. You talked about the educational efforts 
that we have to put forward. What would be included in those 
efforts, and what have you found already in Colorado when it 
has come to the hunting community and the general public in 
their response to this situation?
    Mr. George. One of the concerns that we have with education 
is that there is a lot of confusion among the media, and 
therefore, probably in the general public, about the 
differences amount the different types of TSEs.
    They are different, and it is a matter of science, and it 
is not always the science that is brought forward to educate 
the public. So that what the public hears causes them to worry 
about human health concerns, and that breeds a level of fear 
that then distorts the way that we react to the disease.
    So what we need to do is first of all remember that we are 
dealing with science, and science means specific fact, and we 
need to know as much about that as we can, but we need to 
communicate that to everyone who is interested so that that is 
the first information that they hear, that it is accurate, and 
then they can form opinions about how does it affect them and 
their lives.
    So it just needs to be managed in such a way that we can 
communicate at all levels to all the public who would care. So 
many programs from all levels of government.
    Mr. Mark Udall. Russ, you talked about the science that is 
unfolding right now. Have we gained any additional insights 
over the last year or year-and-a-half that you could share with 
the Committee?
    Mr. George. There is a lot of activity throughout the 
country. USDA is engaged in a number of research projects with 
USGS, and several States. One new bit of information, and I 
would defer to Dr. Fisher on the science of this, but because 
of the number of samples that we were able to take this year, 
and these were all classified according to location, and type 
of animal, and gender of animal, so that we could then process 
that data.
    And we have actually learned that there may be something to 
gender differences in this disease which we had not seen 
before. That is new and we don't know quite where that goes. 
But that is just an example of what can happen if we can step 
up the numbers of tests available all across infected areas, 
and then be able to process that data.
    So that is why time is important. As I said, this year we 
are going to double once again the data points that we are 
going to object, and that should help teach us more about the 
disease.
    Mr. Mark Udall. If I might direct this question to the 
entire panel, including you, Russ. There has been some 
sensitive discussions about captive versus wild game, and 
whether CWD is more apt to be discovered in a captive game 
situation or in the wild. Is there any additional thoughts or 
perspectives on that question at this point?
    Mr. George. Let me begin, and then others can follow. Of 
course, the disease knows no difference among captive or wild, 
and that is the key, and that is what we have tried to do in 
Colorado, is to let that be the target, and not the 
jurisdictional differences, and not the economic differences.
    And what we have accomplished in Colorado is that now the 
Colorado Department of Education, of Agriculture, excuse me, 
and the Colorado Division of Wildlife, maybe for the first time 
in history have joint regulations on the issue, so that we are 
both going the same direction at the same time.
    We are sharing each other's jurisdiction so that when we 
make decisions about chronic wasting disease that we have 
considered what does this do to the captive population, and 
what does this mean to the wild population. I think that is a 
good model.
    Mr. Mark Udall. Is there anybody else on the panel who 
would like to comment?
    Mr. Acord. I would certain echo what Russ has said. I think 
that one of the benefits, if there is ever a benefit to 
something like this, is the closer working relationship that 
the Departments of Agriculture and Departments of Natural 
Resources have fostered in an effort to combat this disease, 
and I think that has been key to a lot of the success.
    It keeps resources used efficiently, and I think it causes 
everybody to work in a common spirit, and we have not always 
seen that. So I certainly agree with everything that Russ has 
said.
    Mr. Mark Udall. I want to thank the panel and thank the 
Chairman, and I would just note, Chairman McInnis, that the 
bill has also been assigned to the Ag Committee, and I am on 
the Ag Committee and would like to work with you over there in 
any way that I can to help. Thank you.
    Mr. McInnis. Thank you, Mr. Udall.
    Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. Thank you for including 
us in this hearing as well. Mr. Taylor, I wanted to ask you 
about the rendering regulations from FDA and EPA. Can you just 
quickly summarize how they are harmful toward testing and 
advancing the rendering concept?
    Mr. Taylor. I will try to do it quickly, Congressman. With 
respect to the rendering proposal, the concern that we 
principally have is the threat of recall for feed or products 
that would be manufactured from carcasses submitted to 
renderers, and we experienced in the last--our States 
experienced in the last hunting season several rendering 
facilities who refused to take deer or elk simply because they 
were concerned that if a recall--that if an animal subsequently 
was diagnosed as positive with chronic wasting disease that it 
could affect them by compelling them to recall products that 
went through their plant, and that came into contact with that 
infected animal.
    So first of all, it discourages the sportsmen from having 
their animals tested, because rendering facilities are saying 
that if an animal comes in that you have submitted the head for 
testing, we won't take it. On the other hand, if you bring us 
an animal in with the head attached, that's fine, or if you 
bring us an animal in with documentation that you have taken it 
to a taxidermist, but that it is not being tested for CWD--
    Mr. Ryan. There is a disincentive attached to it.
    Mr. Taylor. So it would discourage testing, and as I said, 
early detection is predicated on the cooperation of everybody, 
and we have the same concern about the proposal that EPA is 
considering because it again would impede our ability to detect 
the prevalence of the disease because if laboratory facilities 
detecting it can't measure up to the no risk standards that it 
would impose, then we have fewer places where it can be 
detected.
    Also, quite honestly, if they are going to apply this 
standard to laboratories, then we are concerned that next they 
are going to start applying it to butchering facilities, the 
taxidermists, and to rendering plants. Then you are going to 
see a lot of those go out of business, and it is just going to 
snowball.
    Mr. Ryan. Well, in Wisconsin, the rendering industry is 
willing to take deer carcasses, and they are willing to 
dedicate separate facilities to process those carcasses, and 
not to put the food or the rendered material back in the food 
chain, but use it for fuel to burn in power plants.
    So there is a concept that has been advanced. It means that 
we don't have to put carcasses in landfills. You don't have the 
lecithin issues that arise with that. So the industry is coming 
up with novel ideas on how to handle these things, and get some 
use out of it without even having the threat of putting it into 
a food chain where you would have that problem.
    It sounds like EPA and the FDA need to be brought in the 
loop on the task force. Then that brings me to you, Mr. Acord. 
Have you considered bringing the EPA and the FDA in on the 
joint task force so that they can come on board with the whole 
strategy here?
    Mr. Acord. Yes, we have. As a matter of fact the FDA has 
been added to that task force. We have had a number of 
discussions with the FDA about this issue. We have also had 
meetings with the EPA about it, and we will soon add the EPA to 
this effort.
    Mr. Ryan. When was the FDA added?
    Mr. Acord. Well, we brought them into the discussions. We 
have not had a formal meeting of the task force recently and so 
there has been no formal on paper addition if you will, but if 
we have another meeting anytime soon, they will be included.
    Mr. Ryan. You will bring the FDA and EPA in on the meeting?
    Mr. Acord. Yes.
    Mr. Ryan. OK. And will this be, I hope, one of your agenda 
items that you are going to discuss on how to make the 
rendering option a workable option?
    Mr. Acord. That is certainly an issue that we have to work 
with.
    Mr. Ryan. I see that I still have a little bit of time. I 
just wanted to ask, that you said in your testimony that you 
developed a new test. Can you give us a few little details on 
that?
    Mr. Acord. Well, we approved one that was developed by 
private industry, and it is simply a rapid test that the 
industry can use, and it is available for purchase.
    Mr. Ryan. And what is the turnaround time on that 
particular test?
    Mr. Acord. I think the turnaround time is somewhere in the 
neighborhood of 6 hours, I believe, or something like that.
    Mr. Ryan. All right. Thank you. Thank you, Mr. Chairman.
    Mr. McInnis. I welcome the Ranking Member, Mr. Inslee. Mr. 
Inslee, you may proceed.
    Mr. Inslee. Thank you. I am sorry that I missed your 
earlier testimony. You may have covered this, but could you 
give me just a description on either of the bills under 
consideration what percentages or coverage there may be for 
testing of game farm animals transferred interstate?
    And whether that would occur, and if so, on what 
percentages; and if not, what yo think we should be thinking of 
as far as routine screening of interstate game farm animals, 
which at least appear to me to be a considerable vector for 
transmission.
    And that is an open question to any of the gentlemen, and 
if you can help me with that.
    Mr. Acord. Well, one of the things that we are undertaking 
on at least the farm cervid side is a herd certification 
program, where we will have herds that will be registered.
    The animals will be identified, and we will run testing 
over a period of time to determine if there is any disease that 
exists in those herds, and if there are, then we will dispose 
of them and pay the owners an indemnity for those animals that 
are taken.
    Over a period of time then, we can begin to certify those 
herds as free of chronic wasting disease, provided that there 
is no new introductions of animals or anything like that. I 
would think that perhaps for game farms or those kinds of 
animals that a similar system could be adopted for that.
    Mr. Inslee. Now, what you just described, is that taking 
place without passage of this legislation?
    Mr. Acord. Yes. Yes. Under the Animal Health Protection 
Act, we have rather broad authority to deal with those kinds of 
issues.
    Mr. Inslee. So at the moment if a game farm in Colorado 
wants to ship 20 deer to a deer farm in Texas, is there any 
mandatory inspection process in that transfer now?
    Mr. Acord. No, not that I am aware of.
    Mr. Inslee. Is there any contemplated by the Service, at 
least without new legislation?
    Mr. Acord. There is none contemplated by--well, one of the 
things that we are contemplating is requiring some testing when 
animals are moved between States, but that is an issue that is 
still to be worked out with the State Fish and Wildlife 
Agencies, and State Departments of Agriculture.
    Mr. Inslee. And would either of these bills affect that 
issue?
    Mr. Acord. I don't believe so, sir, or at least not from 
the perspective of the U.S. Department of Agriculture.
    Mr. Inslee. Now, it appears to me, and again I am just a 
lay person, but that this is a considerable vector for 
transmission of fairly contagious disease. Should we have a 
system for at least some percentage of testing of interstate 
conveyance of these game farm animals; and if so, what should 
we expect in that regard?
    Mr. Acord. Well, I personally believe that we should have--
and a number of States have enacted restrictions, or put 
regulations in place, to prohibit the movement of farm cervids, 
or the translocation of wild cervids from one State to the 
other.
    And frankly I think that it is a needed addition. I think 
that it can be done under existing authority I guess is my 
view. At least we could in the Department of Agriculture.
    Mr. Inslee. Yes? Russ.
    Mr. George. May I just add a point here that let's not 
forget the underlying assumption. Remember that there is no 
live test today, and so you cannot order testing in advance of 
movement. It is always after the fact. The only time we know an 
animal was infected is after that animal is dead and tested.
    So the only thing you could do under today's science is as 
Mr. Acord has indicated, you look backward over time so that we 
have a 5-year certification period. That is imposed in a number 
of States. Colorado started it, and we reached 5 years ago this 
past May.
    I think that North Dakota has already reached 5 years. So 
what that does is look at the history of what is happening in 
that herd. Five years is scientifically founded, that we have 
not found animals who have lived longer than 5 years once 
having been infected.
    Mr. Inslee. So should we consider a prohibition of 
interstate transfer if you had a 5 year experience in your 
herd, and should that be a Federal obligation rather than a 
State one? And is this a national issue that should require a 
Federal rule in this regard?
    Mr. George. The States are doing that. The States can 
control importation and exportation. Colorado has already 
established a rule that unless there is 60 months of 
certification that there will be no importation.
    Mr. Inslee. How many States have similar prohibitions? Does 
anybody know?
    Mr. Taylor. Virtually all of them, Congressman. I mean, 
every State has very restrictive regulations relative not only 
to the import-export of live cervids, but the interstate 
movement of live cervids as a response to the need to manage 
this disease.
    And many States in fact outright prohibit the importation 
of live cervids for any purpose into their State, and let me 
acknowledge that while there is a lot that we don't know about 
this disease, we do know that greatly restricting the movement 
of live cervids is an effective way to contain it. And so the 
States have acted proactively to try and address that.
    Mr. Inslee. Thank you.
    Mr. McInnis. I noticed that Mr. McGovern is in the 
audience, and if you would like to, Mr. McGovern, you are 
welcome to sit at the dais while you are awaiting your bill.
    Mr. McGovern. I'm fine.
    Mr. McInnis. All right. Mr. Renzi.
    [No response.]
    Mr. McInnis. Mr. Udall. Tom.
    Mr. Tom Udall. Thank you, Mr. Chairman. How many cervids 
nationwide are currently carrying chronic wasting disease 
according to the best estimates, and I guess I am directing 
this to Mr. Groat and Mr. Acord, but anybody else can chip in 
here.
    Mr. Acord. I don't think you can put a number with that, 
sir.
    Mr. Tom Udall. There is no number that can be put on that 
at all?
    Mr. Acord. I don't believe that we have that kind of a 
number in either farmed animals or in the wild.
    Mr. Tom Udall. How many States--does everybody agree with 
that, all the panelists? Nobody is willing to put a number on 
the table?
    Mr. George. Let me enlarge on that, Mr. Udall, why that is 
so.
    Mr. Tom Udall. Russ.
    Mr. George. Because there is no way to test a live animal 
to know. There is just simply no way to know, unless the animal 
happens to be in the later stages, where you see the clinical 
symptoms. You have no way of knowing other than what type of 
overall screening you can do, which is the point of having as 
many tests of hunter-killed animals each year as you can get, 
and test those, and know where those animals were taken, and 
then you found the negatives and the positives.
    For example, in Colorado, just to use some numbers, we know 
that we have 300,000 live elk, wild elk. In our Statewide 
sampling, we found something less than 1 percent in some parts 
of the State, but not everywhere.
    So that is as close as we could get to an answer to your 
question. And we do the same thing for deer. We know that we 
have 500,000 wild deer in some places of the State, and we 
found somewhere around 1 percent infectivity. But there is no 
other way to know that.
    And we don't know every State that has it. The only way we 
know is when some captive or wild cervid has died and been 
tested, and been found positive. On then do you know that it is 
there in some number. Not every State has tested and so we 
don't know all the States.
    Mr. Tom Udall. But what I am trying to get at is has 
anybody looked at, let's say, a herd in a particular area, and 
from the testing that you have done been able to extrapolate in 
a statistical way, or in an epidemiological way, to say that in 
this particular area we are talking about certain percentages.
    So based on that, you can look at Statewide numbers or 
something, the estimates that I am talking about. We have not 
been able to do that, I guess?
    Mr. George. Well, the Colorado and Wyoming experience has 
the most time in it. We have been aware of the existence of the 
disease in Northeast Colorado, Southeast Wyoming, for 20 to 30 
years. And both States have invested time and resources in 
trying to get to the very question that you are asking.
    And we can. We can show you drawings that say, all right, 
we think--here is the center and here as it spreads from that 
center what the prevalence rate is. But it can only be done by 
successive years of testing of any given number of samples. You 
cannot from that geographical area say anything about any other 
area of the United States.
    Mr. Groat. And I would support that. I think that the 
infection rates in studied areas is something that we are 
getting a handle on, but the extrapolation of it is either 
cannot be done or has not been done.
    Mr. Tom Udall. And do we know from this testing and 
observation that has gone in the last 20 or 30 years how many 
States are affected and which States are at highest risk?
    Mr. George. Well, again, unless a State has tested its own 
population, you don't know. So the only way we know is when 
either a captive or wild cervid has for whatever reason died, 
or been killed, and then tested and found positive. That is the 
only way you know.
    But there isn't any way to predict it, because--well, wild 
movements are somewhat known, and so you can at least imagine 
that if you have it in one area, could the migration patterns 
take it to another. But across the country there is not any way 
to know that.
    Mr. Tom Udall. What factors have contributed to the 
increasingly rapid spread of CWD over the last 5 years in both 
captive and wild populations? Is this primarily due to 
transport, in terms of human transport, or is it more due to 
natural migration? What are your thoughts on that, any of you?
    Mr. Acord. I don't think--again, I think the thing that you 
demonstrate by all the questions it has been asking is the 
importance of research to this particular disease and what we 
know, and what we don't know, and we don't have enough 
information to put forth answers to these kind of questions.
    At this point, it is really speculation, and there are a 
lot of theories about how this has happened, but I don't think 
that there are any real facts associated with it that I am 
aware of. I can tell you that right now there are eight States 
that have had cases of chronic wasting disease.
    Mr. Tom Udall. What are those States?
    Mr. Acord. Colorado, Illinois, Nebraska, New Mexico, South 
Dakota, Utah, Wisconsin, and Wyoming.
    Mr. Tom Udall. Thank you, and I thank the panel. I yield 
back to the Chairman.
    Mr. McInnis. All right. Thank you, Mr. Udall. I believe it 
was Mr. George who in the last hearing we had on this made the 
statement that unfortunately there is a lot more that we don't 
know about the disease than there is that we do know about the 
disease, and that is the importance of this research.
    A lot of your questions were very meritorious, but we don't 
have answers for them. Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman. I want to thank the 
panelists for your testimony. This is the second hearing that 
we have had on this very important issue of CWD, and Mr. 
George, I have had a couple of conversations with you already, 
and we have always been very impressed with the aggressive 
stance that you have taken there in Colorado in light of the 
history of the disease in that area, too.
    Obviously there is a lot more education going on here on 
Capital Hill about the disease, and the effect that it is 
having, not only on quality of life issues, but economic issues 
in our respective States that are directly affected.
     Obviously the State of Wisconsin has come into play in a 
big sort of way over the last couple of years, and we have been 
trying to move aggressively on that front, too. And I am glad 
to see my friend, Mark Green, here and the whole Wisconsin 
delegation working hard to try to find the best answer on how 
to deal with this.
    The southern part of my Congressional District is ground 
zero for the outbreak of CWD. We probably had the most 
extensive testing of deer in the white-tail herd in the history 
of our Nation over the last deer-hunting season.
    All 72 counties had submitted test samples to find out 
whether it spread outside the containment zone that has been 
established in Wisconsin, and fortunately it has not to date, 
which is good news. But there is still a lot of work that needs 
to be done.
    And I am sure that it has been mentioned in the panel 
earlier, but I think it needs reiterating, that we need to be 
cautious in regards to the hype surrounding this disease. I 
mean, the World Health Organization has indicated that there is 
no known transmission of CWD to any humans that is documented, 
or any known transmission to any livestock that has been 
documented, which is good news.
    But I agree with Mr. McInnis that with the legislation that 
he has introduced and that I am co-sponsoring with him, and I 
have comparable legislation, but the long term answer to this 
is research, research, research. We need to get the research in 
place, and we need to get the answers so that we know how best 
to react.
    So that we know the pathology of this disease, and how it 
is contracted and transmitted, and whether we can ultimately 
say to the American people that humans are safe, that other 
livestock are safe, and that is why it is so important that we 
work together in trying to move this bipartisan legislation and 
get the research in place.
    I have introduced a couple of bills myself. I think the 
main difference between mine and Mr. McInnis' legislation is 
that I have tried to avoid the jurisdictional conflict that was 
created in the last session with the Agriculture Committee, and 
some reluctance by some of the members there on the Committee 
to delve into this issue and have hearings, and to try and move 
the legislation as it effects USDA and APHIS jurisdiction, and 
Mr. Acord in particular.
    But last year we saw in Wisconsin about a 15 percent 
decline in hunters because of the misinformation that is in the 
field right now. So part of the legislation that we are calling 
for is public outreach and education campaign, so that we do a 
better job with the hunting community, and the families, and 
the spouses of hunters, who are very reluctant to leg people go 
out, let their spouses go out in the field and take the deer 
and bring it home.
    So there is a lot of work that needs to be done. We formed 
a task force as part of the Congressional Sportsmen Caucus to 
further educate our colleagues, and to further provide focus on 
this very important issue.
    And obviously when you get a 15 percent decline in hunter 
participation in a State like Wisconsin, where we approximate a 
million hunters in the field during the deer season, that has a 
tremendous economic effect on all of our communities. So there 
is a lot at play with this.
    Mr. Groat, I am glad to see you, because I know that USGS 
has been doing some very important work on it. I had a chance 
to visit your lab in Madison, and be brought up to speed on the 
type of research that is taking place there, the development of 
a live diagnostic test.
    Maybe I can ask you in regards to your assessment in the 
state of research, and more importantly the coordination of the 
research that is being done between the Federal agencies, and 
State, and universities, that are dealing with some form of 
paleon research right now, and if there is room for improvement 
in regards to the coordination and collaboration in this 
research field.
    Mr. Groat. Thank you for the kind words, Mr. Kind. I would 
like to feel that we are involved in the heart of the research, 
and feel that the multifaceted aspect of the problem itself 
calls for lots of people to pay attention to it, and I think 
that one thing that scientists have a tendency to do is that 
when they have the resources. whether they be university 
scientists, or government scientists, is to attack the problem.
    And one thing they do by their natural selves is to 
associate with each other, and coordinate, and interact, and we 
have had a couple of workshops recently with multiple agencies 
and university participation that demonstrate that that is 
happening.
    And I think that it is also particularly important to 
attack that side of it, not only for the reasons that are 
outlined here today, but the fact that we don't understand some 
pretty fundamental things about CWD itself amongst the wild and 
farm populations, but with a growing concern that the public 
has about the interaction between wild life diseases and human 
diseases, the civets and SARS, and the monkey pox, and so 
forth.
    There is this increased concern about wild life disease and 
its human interactions, and in this case where we don't have 
any demonstrated becomes even more important that we do 
demonstrate that we do understand this, and that aspect of CWD 
needs a lot of attention as well.
    So in sum I think the research community is energized, and 
I think that there are lots of strong participants, and I think 
that as the resources flow that we will get further along the 
way, and I don't think there will be any problem in getting 
interaction and coordination among those institutions.
    Mr. Kind. All right. And thank you, and let me just commend 
Mr. McInnis again for your interest and your leadership on this 
issue, and thank you all for your input, and obviously it is an 
ongoing working relationship that we have developed, and so I 
look forward to working with you and the rest of our colleagues 
here to try to move some of this important legislation and get 
it in place so that we can finally find the answers that we are 
all craving for out there in the field. Thank you again for 
coming.
    Mr. McInnis. Thank you, Mr. Kind. I also want to thank the 
Committee. We have had a lot of bipartisan communication and 
support in trying to do whatever we can do to assist those of 
you out there in the field that are on the front lines of this.
    I want to thank each member of the panel. Mr. Acord, I 
appreciate the grant of the State of Colorado. I am sure that 
Russ will buy you lunch as a result of that. He is a kind guy. 
Mr. Groat, Mr. Taylor, and Mr. Fisher, all of you, thank you 
again very much for making your appearance today. The panel 
will be dismissed.
    Mr. George. Thank you, Mr. Chairman.
    Mr. Acord. Thank you, Mr. Chairman.
    Mr. Groat. Thank you, Mr. Chairman.
    Mr. McInnis. All right. We will go ahead and bring up our 
panel on 2416, our colleague, Mr. McGovern, Dr. Forster, Mr. 
Lamb, and Ms. Estill. Members, if you could take your 
conversations out in the hallway, we are trying to get this 
other panel put on before we have a vote, which could come at 
any moment.
    I want to thank our panel, our second panel today, and I 
appreciate you coming in on this bill, H.R. 2416. I appreciate 
the time that you are going to spend with us in the next few 
minutes.
    I will tell the panel that as you know from the previous 
panel--there goes the vote. So what we are going to attempt to 
do here is we will go first to Mr. McGovern, and we will go 
ahead and waive any opening statements if that is all right 
with Mr. Inslee, and we will go straight to you for your 
opening statements, and then we will try and get a couple of 
the panel in.
    We will have to leave here in about 8 minutes, maybe 9. Mr. 
McGovern, and thank you for coming.

   STATEMENT OF THE HON. JAMES McGOVERN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF MASSACHUSETTS

    Mr. McGovern. Well, thank you very much, Mr. Chairman, and 
I want to thank you, Chairman McInnis, and I also want to thank 
Chairman Gilchrest for your support of this bill. I also want 
to thank the professional and amateur paleontologists, 
including Ted Vlamis, who you will hear from shortly, for 
helping to push this issue forward, and for his thoughtful 
guidance in drafting this legislation.
    I am also grateful to our friends at the Department of 
Interior who have been very helpful, and Chairman McInnis, I 
also want to single out Amy Brown of the Forests and Forest 
Health Subcommittee staff for the tireless work that she has 
done on this bill.
    She is a credit to you and this entire Committee, and so I 
appreciate that. I am grateful for the opportunity to testify 
before this joint Subcommittee today on H.R. 2416, the 
Paleontological Resources Preservation Act.
    Like most people, I have always been and continue to be 
fascinated with dinosaurs and natural history, and with the 
evolving awareness of our planet's history. As both a 
conservationist and a former member of the House Resources 
Committee, I am committed to promoting fossil research and 
preserving our natural heritage for future generations.
    In that spirit, many of my colleagues and I on both sides 
of the aisle have introduced legislation again in this session 
of Congress to protect the irreplaceable and historically 
significant resources that are found on public land.
    Neither the rarity of these fossils, nor the growing 
problem of theft and vandalism of these resources should be 
estimated. Far less than 1 percent of all organisms that have 
ever lived become fossils, and these fossils provide clues that 
help us solve the mysteries of life on earth.
    They are one of the few ways we can study evolutionary 
patterns and environmental change. These fossils are an 
educational and scientific research tool for not only our 
generation, but for generations to come.
    Simply stated, fossils teach us about the history of life 
on earth, and it is unlikely that history will ever be fully 
written without the most complete fossil record possible. 
Protecting that fossil record is precisely why this legislation 
is so urgently needed.
    As we sit here today the most significant threat to 
vertebrae fossil resources, like dinosaurs, is the illegal 
collection of specimens from Federal lands. The commercial 
value of America's fossils has spawned an international black 
market trade that is exploding.
    The sale of fossils has become a highly profitable industry 
that has led to the theft of fossils from both public and 
private land. The National Park Service conducted a service-
wide study in 1999 that revealed an alarming 721 documented 
incidents of fossil theft or vandalism between 1995 and 1998.
    A study commissioned by the Forest Service produced even 
more shocking results. The Forest Service found no less than 
one-third of paleontological sites surveyed in the Oglala 
National Grassland in Nebraska showed evidence of unauthorized 
collecting.
    These are public resources on public lands, and they belong 
to all of us, and we must not allow them to disappear into the 
hands of unscrupulous dealers and black-marketeers. 
Unfortunately, as illegal fossil collection has flourished, we 
have failed to develop a clear, consistent, and unified policy 
that gives Federal land managers the authority to properly 
protect these resources.
     The Paleontological Preservation Resources Act is the 
product of bipartisan Congressional collaboration, which has 
included numerous Federal agencies, respected members of the 
professional and amateur paleontologists community, and 
distinguished research scientists, including many from 
Massachusetts, most notably the Peabody Museum at Harvard 
University.
    It begins by identifying the fundamental and intrinsic 
value of these public resources. The bill provides still 
penalties for crimes involving the theft and vandalism of 
fossils of national significance, in order to deter the illegal 
collection of these resources on public lands.
    It is important to note that the bill seeks only to 
penalize those who seek to profit illegally from these public 
resources. It does not place any new restrictions on amateur 
collectors, who by and large respect the value of these 
fossils. And furthermore the bill requires that all such 
fossils taken from Federal lands be curated at museums or 
suitable depositories.
    Lastly, this bill standardizes the excavation permitting 
practices on public land to ensure that fossils are not 
needlessly damaged. Mr. Chairman, I am convinced that the 
Paleontological Resources Preservation Act represents the best 
chance we have to guard our shared history on this planet from 
being stolen us any further, and to protect the legacy for 
future generations.
    And last for those of us who have kids, and I have a 5 year 
old boy who loves Jurassic Park almost as much as I do, there 
is a special reason for us to move forward on this bill. I 
mean, for my son, if he can't have the real thing, the bones 
are the second best thing to be able to have.
    And if you have ever seen the face of a kid at a museum, or 
at The Smithsonian, in looking at a dinosaur skeleton, the 
wonderment and the fascination in their eyes, you can begin to 
understand how vitally important this bill is.
    And it is within our grasp to solve this problem. The other 
body in the last session passed this legislation unanimously, 
and I hope that we can do the same here today and move this to 
the President's desk, and I thank you very much for this 
hearing and for all of your support. Thank you.
    [The prepared statement of Mr. McGovern follows:]

   Statement of The Honorable James P. McGovern, a Representative in 
         Congress from the State of Massachusetts, on H.R. 2416

    I am grateful for the opportunity to testify before this Joint 
Subcommittee Hearing today on H.R. 2416, The Paleontological Resources 
Preservation Act. Like most people, I have always been and continue to 
be fascinated with dinosaurs, with natural history and with the 
evolving awareness of our planet's history. As both a conservationist 
and a former member of the House Resources Committee, I am committed to 
promoting fossil research and preserving our natural heritage for 
future generations.
    In that spirit, many colleagues and I--on both sides of the aisle--
have introduced legislation again in this session of Congress to 
protect the irreplaceable and historically significant resources that 
are found on public land. Neither the rarity of these fossils nor the 
growing problem of theft and vandalism of these resources should be 
underestimated.
    Far less than 1% of all organisms that have ever lived become 
fossils. These fossils provide clues that help us solve the mysteries 
of life on earth. They are one of the few ways we can study 
evolutionary patterns and environmental change. These fossils are an 
educational and scientific research tool for not only for our 
generation but for generations to come. Simply stated, fossils teach us 
about the history of life on earth. And, it is unlikely that that 
history will ever be fully written without the most complete fossil 
record possible.
    Protecting that fossil record is precisely why this legislation is 
so urgently needed. As we sit here today, the most significant threat 
to vertebrate fossil resources like dinosaurs is the illegal collection 
of specimens from Federal lands. The commercial value of America's 
fossils has spawned an international black-market trade that is 
exploding. The sale of fossils has become a highly profitable industry 
that has led to the theft of fossils from both public and private land. 
The National Park Service conducted a service wide study in 1999 that 
revealed an alarming 721 documented incidents of fossil theft or 
vandalism between 1995 and 1998. A study commissioned by the Forest 
Service produced even more shocking results. The Forest Service found 
no less than one-third of paleontological sites surveyed in the Oglala 
National Grassland in Nebraska showed evidence of unauthorized 
collecting.
    These are public resources on public lands. They belong to all of 
us, and we must not allow them to disappear into the hands of 
unscrupulous dealers and black marketers.
    Unfortunately, as illegal fossil collection has flourished, we have 
failed until to develop a clear, consistent and unified policy that 
gives Federal land managers the authority to properly protect these 
resources. The Paleontological Preservation Resources Act is the 
product of bi-partisan congressional collaboration which has included 
numerous Federal agencies, respected members of the professional and 
amateur paleontologist community and distinguished research scientists, 
including many from Massachusetts. It begins by identifying the 
fundamental and intrinsic value of these public resources. The bill 
provides stiff penalties for crimes involving the theft and vandalism 
of Fossils of National Significance (FONS) in order to deter the 
illegal collection of these resources on public lands. It is important 
to note that the bill seeks only to penalize those who seek to profit 
illegally from these public resources. It does not place any new 
restrictions on amateur collectors who by and large respect the value 
of these fossils. Furthermore, the bill requires that all such fossils 
taken from Federal lands be curated at museums or suitable 
depositories. Lastly, this bill standardizes the excavation permitting 
practices on public land to ensure that fossils are not needlessly 
damaged.
    I am convinced that the Paleontological Resources Preservation Act 
represents the best chance we have to guard our shared history on this 
planet from being stolen from us any further, and to protect that 
legacy for future generations to enjoy.
                                 ______
                                 
    Mr. McInnis. Thank you, Mr. McGovern. I find your comments 
interesting, that if your son can't have the real thing that he 
had to get the bones. So if something happens to you, we will 
remember that, and we will remember that he gets your bones.
    Panel, I am sorry to do this to you, but we are going to 
have to recess. It will probably be about 20 minutes. We will 
get back here as soon as we can, and so if you will be patient, 
we will return. The panel is in recess.
    [Recess.]
    Mr. McInnis. The Committee will come to order. I would ask 
anyone with a cell phone to please turn it off, or just put it 
on the vibrate mode. And before we recessed, we had just heard 
from Mr. McGovern, and now we will go to the panel, and we will 
begin with Mr. Lamb. Mr. Lamb, and the panel, you will have 5 
minutes each, and you may proceed.

 STATEMENT OF ROBERT LAMB, SENIOR ADVISOR TO THE SECRETARY OF 
 POLICY, MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Lamb. Thank you, Mr. Chairman, and Members of the 
Committee. I will abbreviate my remarks in the interest of 
time. I want to thank you for the opportunity to testify on 
behalf of the Department.
    We strongly support the intent of the Paleontological 
Resources Preservation Act. We support its purposes, and we 
wish to work with the Committee as we have been doing to 
continue to perfect this legislation, which we think is vitally 
important.
    I am subbing for our Deputy Assistant Secretary, who has 
worked hardest and longest on this, and in talking to our 
paleontology staff in the last 2 days, I have discovered that 
this is a work in progress, some 25 years in the making.
    The Department has long sought this legislation, and I 
think there is rising support for it. There certainly is a 
need. H.R. 2416 adopts the recommendations contained in a 
report submitted to the Congress at its request in 2000, called 
The Fossils on Federal and Indian Lands Report, the so-called 
Interagency Fossil Report.
    The report identified a significant problem. The lack of 
unified policies and standards for the management of fossils on 
Federal lands was resulting in the deterioration and the loss 
of fossils.
    During the preparation of that report there was significant 
public involvement, and there was strong support for three 
principles. First, that the majority of people who commented 
knew that fossils on Federal lands were an essential part of 
America's heritage.
    Secondly, the public recommended that vertebrae fossils 
continue to be protected as rare and within the ownership of 
the Federal Government. And, third, they supported the 
involvement of amateurs in the science and enjoyment of 
fossils, including the availability of most plant and 
invertebrated fossils for casual collections on lands managed 
by the Bureau of Land Management and the Forest Service.
    Public interest in fossils has grown rapidly as we heard 
this morning, and with this interest the commercial value of 
fossils has also increased. The unfortunate consequences is 
that there has been a loss of fossils from Federal lands 
through insensitive and at times criminal acts, including theft 
and vandalism, and from the United States itself through the 
international trafficking of these resources.
    These factors reduce scientific and public access to 
fossils and destroy the contextual information that is so 
critical to interpreting them. H.R. 2416 provides a unified 
Federal policy to ensure that scientifically significant 
fossils on certain Federal lands are inventoried, monitored, 
protected, and curated consistently, while accommodating the 
Agency's distinct missions.
    The provisions of this bill do not apply to private lands, 
nor do they apply to Indian lands that are held in trust. The 
bill provides a unified approach for Federal agencies, and 
enhances overall management of fossils on Federal lands, and 
approves the collaboration and cooperation that exists between 
agencies, scientists, and the public that we serve.
    Today, vertebrated fossils located on Federal lands may 
only be collected with a permit for scientific and educational 
purposes. H.R. 2416 would codify this policy and standardize 
the permitting requirements among the various Federal agencies, 
thus assisting the public.
    It would ensure that these fossils are retained as public 
property and curated in suitable repositories for current and 
future generations. H.R. 2416 also provides one important 
exception to the permitting requirement. It allows for casual 
collection of certain paleontological resources for personal 
scientific educational and recreational uses.
    This is a very important provision, which would authorize 
the Secretary to allow the public to casually collect common 
invertebrated and plant fossils without permit on certain 
Federal lands.
    In other words, under this bill visitors to BLM lands who 
enjoy paleontology could continue to collect and keep for their 
personal use a wide variety of common plant and invertebrate 
fossils.
    The casual collection of such fossils can be an important 
component for the public's enjoyment of Federal lands, and is 
generally consistent with scientific and educational goals. We 
have included an amendment at the end of my testimony to 
clarify this and other small provisions of the bill.
    This would provide the secretary in the amendment through 
regulation the ability to define the amount and kind of fossils 
to be casually collected. H.R. 2416 would also codify the land 
management agency's existing prohibition on commercial fossil 
collecting from Federal lands.
    It also would provide additional protection by prohibiting 
the excavation, damaged, transport or sale, of paleontological 
resources located on Federal lands. Penalties for these acts 
would be set by classification following fine and imprisonment 
penalties imposed under Federal law.
    H.R. 2416 would also provide the Secretary with the 
flexibility to keep an inventory and monitor exposed fossils 
based onsite specific geology and the paleontology of 
management units.
    It would balance the need for public access to fossils with 
the recognition that the unlimited disclosure of certain 
information about particularly significant fossils can lead to 
theft and vandalism of these fossils, and it would mirror 
similar provisions in the National Park Omnibus Management Act 
of 1998.
    We have included several amendments as I mentioned for the 
Committee's consideration. We look forward to working with the 
Committee on these changes to ensure the bill achieves the 
purposes of this act.
    As the price of fossils rise, the Federal Land Managing 
Agencies will be under increased pressure to both protect 
scientifically significant fossil resources, and to assure 
their appropriate availability to the general public. We 
commend the Committee for its consideration of 2416, and we 
look forward to working with you.
    [The prepared statement of Mr. Lamb follows:]

Statement of Robert J. Lamb, Senior Advisor to the Assistant Secretary 
 of Policy, Management and Budget, U.S. Department of the Interior, on 
                               H.R. 2416

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 2416, the Paleontological 
Resources Preservation Act. The Department supports the purpose of H.R. 
2416 to protect paleontological resources on Federal lands but would 
like to work with the Committee on amendments consistent with those 
provided at the end of this testimony.
    H.R. 2416 adopts the recommendation of a report submitted to 
Congress in May 2000, titled ``Fossils on Federal and Indian Lands'' 
(the Interagency Fossil Report). Concerned about the lack of unified 
policies and standards for the management of fossils on Federal lands 
and the resulting deterioration and loss of fossils, Congress directed 
the Bureau of Indian Affairs, the Bureau of Land Management, the Bureau 
of Reclamation, the Fish and Wildlife Service, the Forest Service, the 
National Park Service, the Smithsonian Institution and the U.S. 
Geological Survey to develop a report assessing the need for a unified 
Federal management policy. During development of the report, three 
major themes emerged from the public comments received. First, a 
majority of people who commented viewed fossils on Federal lands as 
part of America's heritage. Second, they recommended that vertebrate 
fossils continue to be protected as rare and within the ownership of 
the Federal Government. Third, they supported the involvement of 
amateurs in the science and enjoyment of fossils, including the 
availability of most plant and invertebrate fossils for casual 
collection on lands managed by the Bureau of Land Management and the 
Forest Service. To meet these and other goals, the report recommends 
the establishment of a framework for fossil management, analogous to 
the Archeological Resources Protection Act of 1979 (ARPA).
    Fossils are non-renewable and often fragile resources which, with 
the exception of microfossils and those that make up commercially 
developed minerals, such as coal, are relatively rare and have 
significant scientific, educational and recreational values. Federal 
lands, the majority of which are in the drier western part of the 
United States, contain a rich array of plant, invertebrate and 
vertebrate fossils. For more than a century, Federal agencies have 
managed fossils from their lands within their unique missions. These 
agencies have protected all vertebrate fossils from Federal lands, 
requiring permits for their excavation and removal, with the 
stipulation that the resources remain in Federal ownership in 
perpetuity.
    In recent years, public interest in fossils has grown rapidly, and 
with this interest, the commercial value of fossils also has increased. 
The unfortunate consequence has been a loss of fossils from Federal 
lands, through insensitive and criminal acts, including theft and 
vandalism, and from the United States itself through international 
trafficking. These factors reduce scientific and public access to 
fossils and destroy the contextual information critical for 
interpreting the fossils.
    H.R. 2416 should provide a unified Federal policy to ensure that 
scientifically significant fossils on certain Federal lands are 
inventoried, monitored, protected, and curated consistently, while 
accommodating the agencies' distinct missions. The provisions in this 
bill do not apply to Indian lands or private lands. As we understand 
it, the bill, in large measure, reflects the current practice of 
agencies in the management of fossils on Federal land. Streamlining the 
practices of the various land management agencies into a unified 
approach will enhance overall management of fossils on Federal lands by 
reducing public confusion and improving collaboration and cooperation 
among agencies, scientists, and the public.
    Under the agencies' existing regulations and policies, vertebrate 
fossils located on Federal lands may only be collected with a permit 
for scientific and educational purposes. H.R. 2416 would codify this 
collection policy and standardize the permitting requirements among the 
various agencies, as recommended in the Interagency Fossil Report. It 
would ensure that these fossils are retained as public property and 
curated in suitable repositories for current and future generations of 
scientists and the public to study and enjoy. Scientists use the 
information from specimens in repository collections to build on our 
understanding of the history of life and the physical environment on 
Earth. Millions of visitors enjoy the displays offered by public 
repositories of the most spectacular and educational fossils, many 
originating from Federal lands.
    One exception to the permitting requirements under H.R. 2416 is for 
casual collection of certain paleontological resources for personal, 
scientific, educational and recreational uses. This important provision 
would authorize the Secretary to allow the public to casually collect 
common invertebrate and plant fossils without a permit on certain 
Federal lands. In other words, under this bill, visitors to BLM lands 
who enjoy paleontology as a hobby could continue to collect and keep 
for their personal use a wide variety of common plant and invertebrate 
fossils. The casual collection of such fossils can be an important 
component of the public's enjoyment of some Federal lands and is 
generally consistent with scientific and educational goals. We have 
included an amendment at the end of this testimony to clarify this 
provision.
    H.R. 2416 would codify the land managing agencies' existing 
prohibition on commercial fossil collecting from Federal lands. By 
prohibiting such collecting, this legislation ensures that vertebrate 
fossils on Federal lands, a rich part of America's heritage, remain in 
public hands, that they are not bought or sold, and that the Federal 
Government does not have to use taxpayer funds to purchase fossils 
found on lands that it owns.
    H.R. 2416 would provide additional protection by prohibiting the 
excavation, damage, transport or sale of paleontological resources 
located on Federal lands. Criminal penalties for these acts would be 
set by classification, following fine and imprisonment penalties 
imposed under Federal law.
    Keeping an appropriate inventory and monitoring are crucial 
components of fossil management. H.R. 2416 would provide the Secretary 
with the flexibility to keep an inventory and monitor exposed fossils 
based on the site-specific geology and paleontology of management 
units. The exposure of fossils by erosion varies, based on the type of 
rock in which they are found and local climate. Some fossils remain 
exposed at the surface for decades or centuries, while others weather 
away soon after exposure depending on the nature of their preservation.
    H.R. 2416 would balance the need for public access to fossils with 
the recognition that unlimited disclosure of certain information about 
particularly significant fossils can lead to the theft or vandalism of 
those fossils. In the National Parks Omnibus Management Act of 1998, 
Congress authorized the National Park Service to withhold information 
about the nature and specific location of paleontological resources in 
park units unless certain criteria were met. H.R. 2416 would extend 
this same authority to the other Federal land managing agencies.
    At the end of this testimony, we have included several amendments 
for the Committee's consideration. We look forward to working with the 
Committee on these and other changes to ensure that this bill achieves 
the purposes of this Act.
    As the prices of fossils rise, the Federal land managing agencies 
will be under increasing pressure to both protect scientifically 
significant fossil resources and ensure their appropriate availability 
to the general public. H.R. 2416 would create a single legislative 
framework for paleontological resource management that will facilitate 
sharing of resources, personnel and partnership opportunities across 
agency lines.
    Mr. Chairman, this concludes my statement. I would be pleased to 
answer any questions you or other members of the Committee may have.
Proposed Amendments for H.R. 2416
    On p. 3, line 2, strike ``of a reasonable amount''.
    On p. 3, line 4, after ``resources'' insert ``,as determined by the 
Secretary and in an amount determined by the Secretary to be 
reasonable,''.
    On p. 4, line 19, strike (7) and renumber accordingly.
        --Lcreates ambiguity with regard to vertebrates and is 
        addressed in amendment on p. 3, line 4.
    On p. 4, line 23, strike (8) and renumber accordingly.
        --Lcreates ambiguity and is addressed in amendment on p. 3, 
        line 4.
    On p. 5, line 3, insert new (9):
    ``(9) QUALIFIED APPLICANT.--The term ``qualified applicant'' means 
a person who demonstrates relevant scientific training and scientific 
field experience; who is formally associated with a reputable 
scientific or educational institution or Federal, tribal, or state 
agency; and who has any other qualifications determined necessary by 
the Secretary.''
    On p. 3, line 16, after ``means lands'' insert ``controlled or''.
        --Lclarifies the bill's inclusion of all lands (except Indian 
        lands) managed by the Departments.
    On p. 6, line 13, after ``Federal lands'' insert ``controlled or''.
        --Lclarifies generally where casual collecting may be allowed
    On p. 8, line 5, after ``of'' insert ``a''.
    On p. 8, line 15, after ``permit'' insert ``issued under this 
Act''.
        --Lensures that the permit referenced is the permit established 
        under this Act
    On p. 8, line 19, after ``Acts;'' insert ``Criminal''
        --Lclarifies that Section 9 addresses criminal penalties, in 
        contrast with Section 10 which addresses civil penalties
    On p. 11, line 5, after ``involved.'', insert ``, as determined by 
the Secretary.''.
    On p. 11, line 22, strike entire subsection (b), insert:
    ``(b) PETITION FOR JUDICIAL REVIEW; COLLECTION OF UNPAID 
ASSESSMENTS.-
    (1) JUDICIAL REVIEW--Any person against whom an order is issued 
assessing a penalty under subsection (a) may file a petition for 
judicial review of the order in the United States District Court for 
the District of Columbia or in the district in which the violation is 
alleged to have occurred within the 30-day period beginning on the date 
the order making the assessment was issued. The Secretary shall 
promptly file in such court a certified copy of the record on which the 
order was issued. The court shall hear the action on the record made 
before the Secretary and shall sustain the action if it is supported by 
substantial evidence on the record considered as a whole.
    (2) FAILURE TO PAY--If any person fails to pay a penalty under this 
section within thirty (30) days-
         (A) after the order making the assessment has become final and 
        the person has not filed a petition for judicial review of the 
        order in accordance with paragraph (1); or
         (B) after a court in an action brought in paragraph (1) has 
        entered a final judgment upholding the assessment of the 
        penalty,
    the Secretary may request the Attorney General to institute a civil 
action in a district court of the United States for any district in 
which the person is found, resides, or transacts business, to collect 
the penalty (plus interest at currently prevailing rates from the date 
of the final order or the date of the final judgment, as the case may 
be). The district court shall have jurisdiction to hear and decide any 
such action. In such action, the validity, amount, and appropriateness 
of such penalty shall not be subject to review. Any person who fails to 
pay on a timely basis the amount of an assessment of a civil penalty as 
described in the first sentence of this paragraph shall be required to 
pay, in addition to such amount and interest, attorneys fees and costs 
for collection proceedings.
        --Lis the standard enforcement provision found in other laws 
        including the Clean Water Act
    On p. 13, line 18, strike ``may be subject to forfeiture...involved 
in the violation.'' insert
    ``shall be subject to civil forfeiture, or upon conviction, to 
criminal forfeiture. All provisions of law relating to the seizure, 
forfeiture, and condemnation of property for a violation of this Act, 
the disposition of such property or the proceeds from the sale thereof, 
and remission or mitigation of such forfeiture, as well as the 
procedural provisions of Chapter 46 to Title 18, United States Code, 
shall apply to the seizures and forfeitures incurred or alleged to have 
been incurred under the provisions of this Act.''.
        --Lmakes a distinction between civil forfeiture and ensures 
        that criminal forfeiture only could occur upon conviction
        --Lmakes clear that the protections of the Civil Asset 
        Forfeiture Reform Act (CAFRA), an act to provide a more just 
        and uniform procedure for Federal civil forfeitures, would 
        apply
    On p. 14, after line 3, insert new (c):
    ``(c) TRANSFER OF SEIZED RESOURCES.--The Secretary is authorized to 
transfer ownership or administration of seized paleontological 
resources to Federal or non-Federal educational institutions to be used 
for scientific or educational purposes.''
        --Lallows the establishment of partnerships with schools and 
        other entities to transfer seized resources (for example, some 
        resources that are recovered with no record of their context 
        may have lost value to a museum, but may still have educational 
        value)
    On p. 14, line 8, strike ``withheld . . . the responsible 
Secretary'', insert:
        --Lexempt from disclosure under section 552 of title 5, United 
        States Code and any other law, unless the Secretary''.
        --Lclarifies the existing provision and more closely follows 
        other exemption language
    On p.15, line 22, strike ``public'' insert ``Federal''.
    On p. 15, line 20, after ``time'' insert ``under''.
    On p. 15, line 23, strike ``amateur'' insert ``casual''.
                                 ______
                                 
    Mr. Renzi [presiding]. Thank you, Mr. Lamb.
    Ms. Estill.

    STATEMENT OF ELIZABETH ESTILL, DEPUTY CHIEF, PROGRAMS, 
   LEGISLATION AND COMMUNICATIONS, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Ms. Estill. Thank you again very much for the opportunity 
for the opportunity to present USDA's position on this very 
important piece of legislation that will help us not only 
recognize paleontological resources as a real opportunity for 
the public to learn more about ecosystems and early life on 
earth, but will also help us protect those into the future.
    The Department supports the purpose of this bill, but we 
would like to continue to work with the Committee on some 
aspects of it. H.R. 2416 directs the Secretary of the Interior 
and the Secretary of Agriculture to manage and protect 
paleontological resources using scientific principles.
    It recognizes the non-renewable nature of fossils, and 
defines paleontological resources as fossilized remains 
preserved in or on the earth's crust. This distinguishes 
paleontological resources from archeological resources covered 
under the Archeological Resource Protection Act, and culture 
items, covered under the Natural Historic Preservation Act, and 
Native Americans Graves Protection and Repatriation Act, and 
Mineral Resources.
    An important aspect of this bill is its formal recognition 
that casual collection of invertebrate and plant fossils for 
recreational, non-commercial, use is a valid public activity on 
National Forest system lands, unless there is some other 
overriding land use designation.
    if enacted this bill would establish collection provisions 
for paleontological resources, including permitting 
requirements for scientific and educational purposes, as well 
as recreational collection of rocks and minerals for personal 
use.
    Currently there is a very complex mix of laws, regulations, 
and guidelines that have created significant jurisprudential 
challenges. We support penalties that are consistent with 
recent amendments to the Federal sentencing guidelines of the 
U.S. Sentencing Commission for increased penalties for cultural 
heritage resources.
    H.R. 2416 also provides that the proceeds arising from 
civil and criminal penalties established under the bill may be 
available for payment to those who provided information in 
investigations that might lead to civil violations or criminal 
convictions for which the penalties were assessed.
    However, the currently worded language in Section 11 
provides a maximum reward amount that we believe would 
ineffective in most cases. We believe that the appropriate 
reward amount to be offered or paid for assistance in 
investigations would be best determined by the agency and the 
prosecutor based on the significance of the case and the 
assistance provided or needed.
    In addition to the recommendations that I just mentioned, 
we would like to work with the Subcommittee to make several 
minor technical improvements. This concludes my testimony, and 
I have submitted my full testimony for the record, and I would 
be happy to answer any questions.
    [The prepared statement of Ms. Estill follows:]

Statement of Elizabeth Estill, Deputy Chief, Programs, Legislation, and 
Communications, Forest Service, U.S. Department of Agriculture, on H.R. 
                                  2416

    Thank you for the opportunity to appear before you today. I am 
Elizabeth Estill, Deputy Chief for Programs, Legislation, and 
Communications, USDA Forest Service I would like to present the 
Department's views on H.R. 2416 -- the Paleontological Resources 
Preservation Act.
    H.R. 2416, the Paleontological Resources Preservation Act 
recognizes that paleontological resources, especially vertebrate 
fossils, are heritage resources which provide opportunities for the 
public to learn more about ancient ecosystems and the development of 
life. The Forest Service, as steward of these heritage resources is 
committed to their protection while providing opportunities for 
research, education, and recreation. The Department supports the 
purpose of this bill, but would like to work with the Subcommittee on 
some aspects.
    H.R. 2416 directs the Secretary of the Interior and the Secretary 
of Agriculture to manage and protect paleontological resources using 
scientific principles. The bill recognizes the non- renewable nature of 
fossils and defines paleontological resources as fossilized remains 
preserved in or on the Earth's crust. This distinguishes these 
resources from archeological resources, covered under the 
Archaeological Resources Protection Act (ARPA); cultural items, covered 
under the National Historic Preservation Act and the Native American 
Graves Protection and Repatriation Act (NAGPRA); and mineral resources.
    An important aspect of this bill is its formal recognition that 
casual collection of invertebrate and plant fossils for recreational 
non-commercial use is a valid public activity on National Forest System 
lands unless there is an overriding land-use designation. If enacted, 
the bill would establish collection provisions for paleontological 
resources including permitting requirements for scientific and 
educational purposes as well as recreational collection of rocks and 
minerals for personal use. Currently, there is a complex mix of laws, 
regulations and guidelines that have created significant 
jurisprudential challenges. We support penalties that are consistent 
with recent amendments to the Federal sentencing guidelines of the U.S. 
Sentencing Commission for increased penalties for cultural heritage 
resources.
    H.R. 2416 also provides that the proceeds arising from civil and 
criminal penalties established under the bill may be available for 
payment to those who provided information in investigations that lead 
to the civil violations or criminal convictions for which the penalties 
were assessed. However, the current reward language in Section 11 
provides a maximum reward amount that we believe will be ineffective in 
most cases. We believe that the appropriate reward amount to be offered 
or paid for assistance in investigations is best determined by the 
agency and prosecutor based on the significance of the case and 
assistance provided or needed.
    In addition to the recommendations just mentioned we would like to 
work with the Subcommittee to make several minor technical 
improvements.
    This concludes my testimony and I would be happy to answer your 
questions.
                                 ______
                                 
    Mr. Renzi. Thank you.
    Dr. Forster.

STATEMENT OF DR. CATHERINE A. FORSTER, MEMBER AT LARGE, SOCIETY 
                   OF VERTEBRATE PALEONTOLOGY

    Ms. Forster. I am extremely pleased to be here to talk to 
you about his bill today as a professional paleontologist. This 
bill has tremendous support among the paleontology community, 
both professional and amateur, and also great support among the 
public.
    It is endorsed by the Society of Vertebrate Paleontology, 
which is an organization that contains over 2,000 professional 
and amateur paleontologists, and by the American Association of 
Museums, which represents 11,500 individuals, and they belong 
to 3,100 institutions.
    Vertebrate fossils, which are the remains of animals with 
backbones, are being illegally collected and vandalized on 
Federal lands at ever-increasing rates. For example, between 
1995 and 1998 the National Park Service documented 721 
incidents of paleontological resource theft or vandalism in 
National Parks alone.
    Although it is already illegal to collect fossils on 
Federal lands, the current penalties are so low, and the market 
value for fossils so high that current law offers little 
deterrent to fossil thieves.
    For example, a man who had been stealing fossils from a 
National Park over a number of years, when he was finally 
caught, was fined only $50. This gap between resource value and 
penalty has grown so large that it is well worth of taking the 
risk of illegally collecting fossils on Federal land.
    This is making it increasingly difficult for local land 
managers to police their paleontological resources. We really 
need to put some teeth into penalizing fossil theft and this 
bill will help do that.
    Fossils on Federal lands should be collected, but they need 
to be collected legally by experienced people. There are three 
reasons for this. First of all, fossils must be properly 
collected to maximize the preservation of the fossil itself. 
Fossils are always complex, and they are very often fragile.
    Specimens collected improperly usually come out of the 
ground in irreparable pieces and missing crucial parts, their 
scientific value greatly compromised. And while the fossil 
itself contains a wealth of information, the rock in which the 
fossil is found provides additional data, such as clues to the 
ancient environment and climate in which the animal lived, the 
age of the fossil, the attending plant life, and its precise 
geographic location.
    This crucial contextual data must be carefully collected 
along with the fossil, and often requires a collaboration of 
other professionals, such as geologists and paleonal botanists. 
Therefore, even if an illegally collected fossil is recovered, 
it is likely to be in less than optimal condition, and half of 
its scientific value is loss without proper contextual data.
    Number 2, once properly collected, the fossils must be 
deposited in a museum or university collection where it will be 
cared for and held in perpetuity in the public trust. In such 
collections, the fossil is available for scientific study and 
for public exhibition, or for use in educational programs.
    Illegally collected fossils end up in private hands, and 
they are sold commercially to the highest bidder, and many are 
exported from this country illegally. None of these fossils end 
up in the public trust and none of them contribute to our 
understanding of past life.
    And importantly, number 3, fossils are historical objects 
that inform us about past life on earth. When collected by 
professionals and deposited in a public institution for 
safekeeping, they become widely available for study. The fossil 
bones themselves can teach us what the animal looked like when 
it was alive, the speed it ran, how quickly it grew, what it 
might have eaten, and which other animals it was most closely 
related to.
    Even fossils that have been in collections for over 100 
years are still revealing new information to us. This is 
because as time goes on new techniques and new technologies are 
developed that can help us glean additional information from 
these specimens.
    So it is not good enough just to look at a fossil once. It 
must be kept in the public trust so that years from now, or 
generations from now, they are still available for study. And 
this is not just esoteric information for the edification of a 
few paleontologists.
    You all know from reading newspapers every day that 
information on fossils in past life shows up in the news very, 
very often. For instance, over the last few years there have 
been many, many articles documenting the evolution of modern 
birds from small meat eating dinosaurs, and this is something 
that the public is extremely interested in hearing about.
    They are fascinated by dinosaurs and other remains of past 
life, and fossils, especially dinosaurs, serve as an entre in 
science for thousands of Americans, possibly millions of 
Americans, especially for children.
    And I know that it had this effect on me. When I was a 
little girl, I was absolutely awe-inspired by the triceratops 
skeleton at the Science Museum of Minnesota, and it is one of 
the reasons that I ended up becoming a paleontologists. That 
specimen also is collected on Federal land.
    The more fossils that end up in the public trust, the more 
information we paleontologists have regarding past life, and 
the better we can inform the public about this. So fossils on 
Federal land are part of our heritage, and they are also part 
of a global heritage of the history of life on our planet.
    And as Americans, I think we have a responsibility to 
protect these historical treasures that we have. They are on 
Federal land and they belong to all of the American people, and 
I think they should remain that way. So we need Bill 2416 to 
help ensure that these fossils are kept in the public trust for 
the good of us all. Thank you.
    [The prepared statement of Dr. Forster follows:]

       Statement of Catherine Ann Forster, Associate Professor, 
            Society of Vertebrate Paleontology, on H.R. 2416

    I am very honored to testify in support of H.R. 2416, The 
Paleontological Resources Preservation Act. This bill has been endorsed 
by the Society of Vertebrate Paleontology, an organization of more than 
2000 professional and amateur paleontologists and by the American 
Association of Museums, which counts in its membership 11,500 
individual museum professionals and volunteers, 3100 institutions, and 
1700 corporate members.
    A heightened public interest in dinosaurs and other extinct life 
forms has given paleontologists an unprecedented opportunity to share 
with the public the excitement of recent advances in this fascinating 
science that records the history of life on our planet. Dinosaurs and 
fossils have become the window through which many young children get 
their first introduction to science, oftentimes inspiring a life-long 
interest or career in science. The fossil record is our only way of 
learning about the history of past life on our planet, and it is 
important for all Americans to have the opportunity to learn from this 
record. For this reason I'm pleased to see that H.R. 2416 calls for the 
establishment of a program to increase public awareness about the 
significance of paleontological resources on Federal lands. As we 
confront important public policy issues including global climate change 
and the extinction of countless species of animals and plants, the 
fossil record provides a critical historical basis to help guide our 
decisions.
    While it is gratifying that the public has become more interested 
in the history of life on our planet, and while paleontologists have 
become increasingly eager to share this knowledge, heightened 
visibility has also led to the increased commercialization of fossils. 
This has led to a black market trade in fossils from foreign countries 
(in violation of export laws) and to the theft of fossils from public 
and private lands in the United States.
    I would like to share a little bit of information with you about 
how paleontological research is done and why this legislation is 
essential to ensuring maximal public benefit from this research.
    Many kinds of fossils, including those of most vertebrates 
(backboned animals), are rare for several reasons. Many organisms are 
not readily preserved as fossils because they do not have hard parts. 
Only rather unusual sedimentary rock environments preserve soft parts 
long enough to become fossilized. Also, organisms can only be preserved 
where sediments accumulate at a fairly high rate. Most organic remains 
are not buried fast enough to contribute to the fossil record. 
Vertebrate fossils are much less common than invertebrate and plant 
fossils. Although we are fortunate to have some exceptions, spectacular 
deposits of diverse and complete organisms are rare over the history of 
the earth. The majority of fossil vertebrate species are extremely rare 
or are represented by a single unique specimen. For these reasons the 
chances of any vertebrate becoming a fossil are very small. Thus, 
individual vertebrate fossils are extremely valuable as bearers of 
information about the past. Furthermore, fossils of extinct groups are 
not renewable. More fossils will be discovered and collected, but 
always from a finite supply. More than 99% of all life forms that have 
ever lived on Earth are already extinct and are only potentially known 
by fossils.
    Fossils themselves cannot tell the full story of life on Earth and 
they must be supplemented with contextual data. The rocks in which the 
fossils are found provide information about ancient environments and 
climates, the age of the fossils, position in a historical sequence, 
and their paleogeographic location. Fossil assemblages can also provide 
information about ecological interactions and communities.
    A fossil collected without this information has lost much of its 
value, and we know little more than that this animal lived and died. In 
contrast, when contextual data are collected and studied, we begin to 
understand how the animal lived and its place in the balance of nature. 
As paleontologists and geologists learn more ways to interpret ancient 
environments and ecological communities from fossil assemblages in 
their original context, this information becomes more and more valuable 
and important. These contextual data allow us to bring these animals to 
life for tens of millions of visitors to our museums, to the many young 
children who have hands-on experience with original specimens, and to 
the American public.
    Our understanding of evolutionary processes and the tree of life 
comes primarily from comparing the skeletons from different animals to 
each other. In order to do this researchers must be able to compare new 
specimens with those previously unearthed. Oftentimes a new analysis 
many years later shows our earlier understanding was incomplete or 
mistaken. For example, when Dr. John Ostrom was doing research on 
Deinonychus, a dinosaur similar to the Velociraptor popularized in 
Jurassic Park, he found that a specimen thought to be a carnivorous 
dinosaur was actually the rare early bird Archaeopteryx. Ostrom's 
research was critical in establishing the link between dinosaurs and 
birds that became a proudly recited fact for every young dinosaur 
aficionado. Only when specimens are properly collected and permanently 
preserved in public institutions can researchers access these specimens 
in order to make these comparisons. And when these comparisons and 
interpretations are made education and the general public greatly 
benefit by having access to this new interpretive knowledge through 
media reports, books, and the Internet.
    In a poll taken in 1991 of America's major museums, more than 49% 
of the 1.8 million specimens of dinosaurs and other fossil vertebrates 
in their collections were from public lands. Of the overall total, 
amateurs had donated more than 100,000 specimens to museums and 
significantly less than 1 % of the specimens came from commercial 
collectors (Stucky and Ware, 1991).
    H.R. 2416 does not change any current aspect of access to fossils 
on public lands on the part of amateurs, educators, or professional 
scientists. It does codify current land management authority and 
practice into uniform guidelines. This will help paleontologists to 
ensure that they are complying with the law when doing research on 
Federal lands. It also will help increase the awareness of the 
cooperative spirit of amateurs and professionals and provides for 
stronger penalties for those who would destroy or permanently remove 
valuable fossils from our public heritage.
    We urgently need stronger penalties for theft and destruction of 
fossils from public lands. Sadly, some of the most egregious cases of 
theft and vandalism have occurred on Federal lands belonging to all 
Americans.
    The rapidly increasing commercial value of fossils has created a 
situation where the limited penalties that exist are not sufficient to 
deter illegal collecting. In the Report ``Fossils on Federal and Indian 
Lands'' it was noted that ``the fines currently imposed on fossil 
thieves are usually low compared to the lost resources. For example, 
one man who had stolen fossils from a national park over a period of 
years was fined a total of $50.'' (Babbitt, 2000 p. 29)
    In many cases the theft of fossils is so widespread and occurs so 
rapidly that we do not even know what is being lost. In a study 
commissioned by the Forest Service, it was found that almost one-third 
of the paleontological sites surveyed in the Oglala National Grassland 
showed evidence of unauthorized collecting. In 1999, the National Park 
Service identified 721 documented incidents of paleontological resource 
theft or vandalism, many involving many specimens, in the national 
parks between 1995 and 1998. (Babbitt, 2000 p. 28)
    The increased commercial market for fossils worldwide has sometimes 
led to distortion of the fossil record. In some cases fossils have been 
altered in order to inflate their commercial value. And we have lost 
significant specimens from further scientific investigation and 
exhibit, making it harder for people to see and examine for themselves 
the authentic objects in our museums. It is critical that 
scientifically significant fossils from Federal lands, i.e. that 
portion of the fossil record that belongs to the American people, 
remain in the public domain so that everyone--children and adults, 
amateur and professional paleontologists--may benefit from this 
irreplaceable resource.
    I would like to conclude by telling you about one example of the 
kind of cooperation, which exists between Federal agencies, amateur 
paleontologists and professional paleontologists. Figure 1 shows a 
Tyrannosaurus rex that was found on Federal land by amateur 
paleontologist Kathy Wankel. She reported this find to dinosaur 
paleontologist Jack Horner of the Museum of the Rockies at Montana 
State University, Bozeman. The MOR was able to collect this fossil and 
the contextual data and to learn much more about this animal known to 
all schoolchildren. Dr. Horner is currently in the fifth year of a 
field study in the Charles M. Russell National Wildlife Refuge in 
eastern Montana. To date eight Tyrannosaurus rex skeletons have been 
discovered. The field study is yielding valuable information about this 
most famous of the dinosaurs and the environment in which it lived. The 
work of the Museum of the Rockies has made it possible for the National 
Museum of Natural History, Smithsonian Institution, to collect one of 
these specimens. Thus, our National Museum will be able to display an 
actual specimen of this celebrated American dinosaur for the first 
time. The passage of H.R. 2416 will foster more and more opportunities 
like this and inspire the long-term preservation of these priceless 
national resources.
    References:
    Babbitt, B. 2000. Report of the Secretary of the Interior: Fossils 
on Federal and Indian Lands
    Stucky, R.K., and S. Ware. 1991. Questionnaire concerning fossil 
collecting on Federal Lands. DMNH, Denver.
                                 ______
                                 
    Mr. Renzi. Thank you, Dr. Forster, for your testimony.
    I now recognize Mr. Vlamis for 5 minutes.

       STATEMENT OF TED J. VLAMIS, AMATEUR PALEONTOLOGIST

    Mr. Vlamis. Thank you very much for the opportunity to 
testify here today. I am in favor of H.R. 2416, the 
Paleontological Resources Preservation Act. One of the most 
gratifying things for me as an amateur paleontologist has been 
the opportunity to collaborate with professional scientists, to 
learn from them, and to make my own small contribution to the 
advancement of scientific knowledge.
    H.R. 2416 puts no new restrictions on amateur 
paleontologists like me. We can continue to collect for 
personal use common plant and invertebrate fossils on multi-use 
lands without a permit, and our colleagues who are amateur rock 
and mineral collectors will benefit from the provisions of 
Section 14.
    H.R. 2416 impacts neither private lands nor existing 
private collections. The PRPA has been endorsed by both the 
Western Interior Paleontological Society, an organization of 
over 300 amateur paleontologists, and by the Dry Dredgers, the 
Cincinnati area amateur group.
    Because of my personal interest in Paleontology, and the 
nexus between paleontology and public policy, I have studied 
the problems of illegal collection and theft of fossils from 
Federal lands for the past several years.
    I would like to share with you a couple of case histories 
that illustrate what is happening to this valuable public 
resource, beginning with the story of three allosaurus 
specimens, and this would be what allosaurus is, a large meat-
eating dinosaur from the Jurassic period.
    In 1991 the BLM discovered an illegal commercial collection 
taking place on Federal land. They contacted the Museum of the 
Rockies at Montana State University at Bozeman, and asked them 
to collect the specimen and hold it in the public trust.
    As a result of this the most complete Allosaurus ever 
found, which this commercial collector intended to sell to a 
private collector overseas, has now been saved for all the 
people of the United States.
    The commercial collector who had attempted to steal this 
fossil and the information that it tells us was never 
prosecuted. Unfortunately, the American people were much less 
fortunate in the case of another Allosaurus find illegally 
collected from BLM land near Fremont Junction, Utah.
    The collector was not prosecuted because of the lapse of 
the statute of limitations. The commercial fossil dealer, who 
purchased the Allosaurus for $90,000 and sold it to a Japanese 
collector for $400,000 plead guilty to the receipt of stolen 
property and was sentenced to 1 year probation. His company was 
fined $50,000.
    A profit of $260,000 is not an effective deterrent. We must 
have stronger penalties and specific laws protecting fossils on 
Federal lands to deter this type of illegal activity and this 
Allosaurus remains in Japan today and has not been able to be 
recovered for the people of the United States.
    A paleontological area near Grand Junction, Colorado, is 
the first management area specifically protected by the Bureau 
of Land Management solely because of fossils. During a trip 
there, I was able to learn much about the important research 
that is being done at that site.
    Unfortunately, I also witnessed the damage that is 
occurring there because of theft and vandalism. Here in Figure 
2, this kind of gray area that you see here is all that remains 
of what was once a largely intact Allosarus vertebrae.
    The remainder of the vertebrae, which protruded from this 
rock, has been hacked away by people illegally harvesting 
this.Here in Figure 3, we see the gray here is part of what was 
once a major portion of an Allosaurus skeleton, and over the 
years people have just lopped off pieces of it to take home and 
put on their mantles, or sell to people, or whatever, but most 
of it has disappeared.
    And here you can see a depression in the rock, and this is 
from Dinosaur Hill, which is near the paleontological area. 
There was once a deplodicus femur there, but somebody has 
carted that away.
    The paleontological community is strongly in favor of laws 
protecting fossils on public lands and of prohibiting their 
collection for commercial use. The Society of Vertebrate 
Paleontology collaborated with the Paleontology Society several 
years ago and issued a joint statement regarding fossils on 
public lands, which is consistent with 2416.
    Together these two societies represent several thousand 
individuals, including more than 90 percent of the professional 
paleontologists, and a very large proportion of amateur 
paleontologists.
    Similar, the American people support the type of 
stewardship of fossils on Federal lands that is embodied in 
H.R. 2416. In a survey, 85.3 percent agreed with the statement 
that, quote, fossils of animals with backbones are part of our 
national heritage and should be protected in much the same way 
that archeological remains are not protected.
    And 88 percent agree, quote, that if laws are created to 
restrict the collection of fossils on public lands, the only 
people who should be allowed to collect them are people with 
appropriate skills for doing so, and with a permit for that 
purpose. All the fossils that they find should go into museums 
and universities prepared to protect them.
    These are exactly the principles that we see in H.R. 2426. 
So the amateur and professional paleontological communities, 
and the general public, need the information from fossils found 
on Federal lands, and they want these fossils to be protected 
by theft and vandalism so that this part of our natural 
heritage is preserved as a national treasure for all Americans.
    I want to thank you again for the opportunity to testify 
here. I have entered further remarks in the written record, and 
I would be happy to answer any questions that you may have.
    [The prepared statement of Mr. Vlamis follows:]

    Statement of Ted J. Vlamis, Amateur Paleontologist, on H.R. 2416

    I'd like to thank you for the opportunity to testify in favor of 
H.R. 2416, the Paleontological Resources Preservation Act. I am an 
amateur paleontologist, and have seen firsthand how the increased 
public interest in paleontology has motivated many Americans to make an 
avocation of the fascinating field of study.
    One of the most gratifying things for me has been the opportunity 
to collaborate with professional scientists--to learn from them, and to 
make my own small contribution to the advancement of scientific 
knowledge. I have had the pleasure in participating in fieldwork with 
the Dinamation International Society, the Universidad Autonoma de 
Mexico, the Shuler Museum of Paleontology at Southern Methodist 
University, and the Ft. Worth Museum of Nature and History. I have been 
an active member of the Society of Vertebrate Paleontology, including 
serving as a member of its Government Affairs Committee since 1996 and 
as Affiliated Societies Liaison from 1997-2002. By having amateurs like 
me serve in significant positions, the SVP has ensured that it reflects 
the interests of both professional and amateur paleontologists.
    H.R. 2416 puts no new restrictions on amateur paleontologists like 
me. We can continue to collect for personal use common plant and 
invertebrate fossils on multi-use lands without a permit. And our 
colleagues who are amateur rock and mineral collectors will benefit 
from the provisions of Section 14, which recognizes that casual 
collecting of rocks and minerals for personal use is a valid use of 
National Forest System lands. H.R. 2416 impacts neither private lands 
nor existing private collections. The PRPA has been endorsed by both 
the Western Interior Paleontological Society, an organization of over 
300 amateur paleontologists, and by the Dry Dredgers, a Cincinnati area 
amateur group.
    Because of my personal interest in paleontology, and the nexus 
between paleontology and public policy I have studied the problems of 
illegal collection and theft of fossils from Federal lands for the past 
several years. I'd like to share with you a couple case histories that 
illustrate what is happening to this valuable public resource. I'm 
going to begin with the story of three Allosaurus specimens. Allosaurus 
was a large carnivorous dinosaur of the Jurassic period (fig. 1).
    In 1991, the BLM discovered an illegal commercial collection taking 
place on Federal land. The BLM contacted the Museum of the Rockies at 
Montana State University--Bozeman and asked them to collect the 
specimen and hold it in the public trust. As a result of this, the most 
complete Allosaurus ever found, which this commercial collector 
intended to sell to a private collector overseas, now has been saved 
for all the people of the United States. As a result of careful 
analysis of injuries sustained by this dinosaur and preserved in the 
bones, this particular specimen has yielded a treasure trove of 
information about how Allosaurus lived. The commercial collector, who 
had attempted to steal this fossil and the information it tells us, was 
never prosecuted.
    Unfortunately, the American people were much less fortunate in the 
case of another Allosaurus find. This Allosaurus was illegally 
collected from BLM land near Fremont Junction, Utah. The collector was 
not prosecuted because the lapse of the statute of limitations. Last 
year the commercial fossil dealer, who purchased the Allosaurus for 
$90,000 and sold it to a Japanese collector for $400,000, plead guilty 
to receipt of stolen property and was sentenced to 1 year probation. 
His company was fined $50,000. A profit of $260,000 is not a deterrent. 
We simply must have stronger penalties and have specific laws 
protecting fossils on Federal lands in order to deter this type of 
illegal activity.
    The Fruita Paleontological Area near Grand Junction, Colorado 
became the first management area specially protected by the Bureau of 
Land Management solely because of fossils in 1976. Specimens from this 
area include Allosaurus, Apatosaurus, Camarasaurus, Ceratosaurus, 
Dryosaurus, and Stegosaurus. It has also yielded numerous 
microvertebrate and invertebrate remains and has facilitated 
reconstruction of the ecological community in which these animals 
lived. During a trip to the Fruita Paleontological Area I was able to 
learn much about the important research being done there. 
Unfortunately, I also witnessed the damage that is occurring there 
because of theft and vandalism.
    Figure 2 shows the remains of what was once a largely intact 
allosaur vertebrae. The entire portion of the vertebrae that was 
protruding from the surrounding matrix has been sheared off.
    Figure 3 shows what was probably once a major portion of an 
allosaur skeleton. We will never know what scientific information this 
specimen would have yielded.
    In Figure 4 we see the imprint showing where a Diplodocus femur was 
stolen from Dinosaur Hill, a quarry just a short distance from the FPA.
    The paleontological community is strongly in favor of laws 
protecting fossils on public lands, and of prohibiting their collection 
for commercial use. Several years ago, the Society of Vertebrate 
Paleontology (SVP) added a Statement of Ethics to its bylaws to help 
the society and its members handle ethical issues such as those raised 
by increasing commercialization. I summarized the SVP Ethics Statement 
and a subsequent Joint Position Statement by the Paleontological 
Society as follows: ``The SVP Ethics Statement contains several 
principles that are particularly noteworthy for their public policy 
implications. It begins by recognizing that vertebrate fossils are 
usually unique or rare, and that they are part of our natural heritage. 
The Ethics Statement assigns to vertebrate paleontologists the 
responsibility of ensuring that pertinent detailed contextual data are 
recorded when vertebrate fossils are collected and notes that 
collection and preparation should be done by properly trained 
personnel. The importance of proper curation and the assurance of 
access for future researchers are recognized by the Ethics Statements' 
provision that scientifically significant vertebrate specimens should 
be curated and accessioned in institutions charged in perpetuity with 
conserving fossil vertebrates for scientific study and education. The 
Ethics Statement further recognizes the responsibility of 
paleontologists to expeditiously disseminate information to other 
paleontologists and to the general public. Perhaps the most important 
part of the SVP Ethics Statement from a public policy perspective is 
the conclusion that ``The barter, sale, or purchase of scientifically 
significant vertebrate fossils is not condoned unless it brings them 
into, or keeps them within, a public trust'' (SVP, 1994).
    In order to ensure that the SVP's public policy recommendations and 
initiatives regarding fossils on Federal lands were also reflective of 
the wider paleontological community, the SVP initiated a dialogue with 
the Paleontological Society. Together these two scientific societies 
include several thousand individuals, representing more than 90% of 
professional paleontologists and a very large proportion of amateur 
paleontologists. This dialogue culminated in 1999 when the two 
societies issued the joint position statement Paleontological Resources 
on U.S. Public Lands. The PS-SVP joint statement advocates public 
policy which, like the SVP Ethics Statement, recognizes that fossils 
are part of our scientific and natural heritage. It goes on to find 
that fossils on public lands belong to all the people of the United 
States and that, as such, they need special protection, and should not 
be collected for commercial purposes. The joint statement concludes 
that the two societies strongly support actions which ``protect fossils 
on public lands as finite natural resources; encourage responsible 
stewardship of fossils for educational, recreational, and scientific 
purposes; promote legitimate access to, and responsible enjoyment of, 
paleontological resources on public lands by the public and amateur 
paleontologists for personal use, and by the professional 
paleontological community, including professional paleontologists from 
outside the U.S.; and bring fossils from public lands into public 
institutions where they are available for purposes of education and 
scientific research'' (PS and SVP, 1999).'' (Summary from Vlamis, 2001) 
The Society of Vertebrate Paleontology has endorsed The Paleontological 
Resources Preservation Act.
    Similarly the American people support the type of stewardship of 
fossils on Federal lands which is embodied in H.R. 2416. MKTG, INC., a 
market research firm that has conducted over 10,000 studies since its 
founding in 1979, conducted a survey of American public opinion 
regarding fossils. This survey of 300 American adults analyzed public 
responses both to a hypothetical situation involving the discovery of a 
fossil, and to a series of more general questions pertaining to 
fossils. A random calling program was utilized which gave every 
telephone in the U.S. the same probability of being called. The survey 
results have an accuracy rate of +/- 7%. The findings of this survey 
are detailed in Vlamis (2001).
    Several key points that demonstrate public support for the 
principles embodied in H.R. 2416. When the hypothetical find is assumed 
to have been made on public land 86.6 percent agree with the statement 
that ``The fossil is part of our heritage, it belongs to everyone in 
the United States'', 80.0 percent with the statement that ``There 
should be a law against my selling the fossil'', 81.0 percent with the 
statement that ``There should be a law against my taking the fossil out 
of the United States'', and 81.0 percent disagree with the statement 
that ``The fossil is mine, finders keepers''. The consistency of 
responses when asked in a variety of different ways is striking.
    In the second part of the survey, 85.3 percent agreed with the 
statement that that ``Fossils of animals with backbones are part of our 
national heritage and should be protected in much the same way that 
archeological remains (human artifacts) are now protected''; and, 88.0 
percent agreed that ``If laws are created to restrict the collection of 
fossils on public lands, the only people who should be allowed to 
collect them are people with appropriate skills for doing so and with a 
permit for that purpose. All the fossils that they find should go into 
museums and universities prepared to protect them'' (Vlamis, 2001). The 
American people want our natural heritage preserved as a national 
treasure.
    The amateur and professional paleontological communities and the 
general public need the information from fossils found on Federal lands 
and they want these fossils to be protected from theft and vandalism.
    References:
    Paleontological Society and Society of Vertebrate Paleontology. 
1999. Joint Position Statement by The Paleontological Society and The 
Society of Vertebrate Paleontology on Paleontological Resources on U.S. 
Public Lands
    Society of Vertebrate Paleontology. 1994. Bylaws, Article 9
    Vlamis, T.J., 2001, in Proceedings of the 6th Fossil Resource 
Conference Santucci, V.L. and McClelland, L. (eds) Geologic Resources 
Division Technical Report NPS/NRGRD/GRDTR-01/01 September 2001
                               Appendix 1
          society of vertebrate paleontology by-law on ethics
                    article 9. statement of ethics.
    Several goals for the Society of Vertebrate Paleontology follow 
from its mission statement (Constitution Article 1): to discover, 
conserve, and protect vertebrate fossils and to foster the scientific, 
educational, and personal appreciation and understanding of them by 
amateur, student and professional paleontologists, as well as the 
general public. Fossil vertebrates are usually unique or rare, 
nonrenewable scientific and educational resources that, along with 
their accompanying contextual data, constitute part of our natural 
heritage. They provide data by which the history of vertebrate life on 
earth may be reconstructed and are one of the primary means of studying 
evolutionary patterns and processes a s well as environmental change.
    It is the responsibility of vertebrate paleontologists to strive to 
ensure that vertebrate fossils are collected in a professional manner, 
which includes the detailed recording of pertinent contextual data 
(e.g. geographic, stratigraphic, sedimentologic, taphonomic).
    It is the responsibility of vertebrate paleontologists to assist 
government agencies in the development of management policies and 
regulations pertinent to the collection of vertebrate fossils, and to 
comply with those policies and regulations during and after collection. 
Necessary permits on all lands administered by Federal, state, and 
local governments, whether domestic or foreign, must be obtained from 
the appropriate agency(ies) before fossil vertebrates are collected. 
Collecting fossils on private lands must only be done with the 
landowner's consent.
    Fossil vertebrate specimens should be prepared by, or under the 
supervision of, trained personnel.
    Scientifically significant fossil vertebrate specimens, along with 
ancillary data, should be curated and accessioned in the collections of 
repositories charged in perpetuity with conserving fossil vertebrates 
for scientific study and education (e.g. accredited museums, 
universities, colleges, and other educational institutions).
    Information about vertebrate fossils and their accompanying data 
should be disseminated expeditiously to both scientific community and 
interested general public.
    The barter, sale, or purchase of scientifically significant 
vertebrate fossils is not condoned unless it brings them into, or keeps 
them within, a public trust. Any other trade or commerce in 
scientifically significant vertebrate fossils is inconsistent with the 
foregoing, in that it deprives both the public and professionals of 
important specimens, which are part of our natural heritage.
                               Appendix 2
joint position statement by the paleontological society and the society 
of vertebrate paleontology on paleontological resources on u.s. public 
                                 lands
    The Paleontological Society and The Society of Vertebrate 
Paleontology are committed to increasing scientific knowledge, 
educational benefits, and appreciation of the natural world based on 
fossils--for everyone--child or adult, the general public, or amateur 
or professional paleontologists. Fossils are an invaluable part of our 
scientific and natural heritage. They yield detailed information about 
the history of life and of our planet, and provide lessons for the 
modern world and our future.
    Many important fossil localities occur on U.S. public lands and 
belong to all people of the United States, including future 
generations. The Society of Vertebrate Paleontology and The 
Paleontological Society therefore support the development of policies 
and practices that can be used by different Federal agencies to 
regulate the collection of fossils on U.S. public lands in an 
appropriate, clear and consistent manner.
    Many fossils are common (for example, many non-vertebrate fossils) 
and should be allowed to be collected--in a responsible way--by any 
amateur or professional paleontologist, thus allowing them to 
experience and benefit from the excitement of discovery, recovery, 
identification and study. In particular, because of the benefits that 
derive from increased public appreciation of fossils, it is important 
that the participation of amateurs in paleontology is not discouraged 
by Federal policies and practices.
    Other fossils are rare (for example, many vertebrate fossils and 
some non-vertebrate fossils), and require special protection, 
especially from destruction by vandalism or commercial exploitation. In 
particular, because of the dangers of overexploitation and the 
potential loss of irreplaceable scientific information, commercial 
collecting of fossil vertebrates on public lands should be prohibited, 
as in current regulations and policies. The commercial collecting of 
other paleontological resources on U.S. public lands should be strictly 
regulated by permit through the appropriate land management agencies. 
Regulations and polices regarding the collection of paleontological 
resources from U.S. public lands should be strictly enforced.
    In this context, the Council of The Paleontological Society and the 
Executive Committee of The Society of Vertebrate Paleontology strongly 
support actions that:
         (i) Lprotect fossils on public lands as finite natural 
        resources,
         (ii) Lencourage responsible stewardship of fossils for 
        educational, recreational, and scientific purposes,
        (iii) Lpromote legitimate access to, and responsible enjoyment 
        of, paleontological resources on public lands by the public and 
        amateur paleontologists for personal use, and by the 
        professional paleontological community, including professional 
        paleontologists from outside the U.S.; and bring fossils from 
        public lands into public institutions where they are available 
        for purposes of education and scientific research.
    The following attachments have been retained in the Committee's 
official files.
    <bullet> LTJV Firgue 1. Allosaurus was a large carnivorous dinosaur 
of the Jurassic period.
    <bullet> LTJV Figure 2. Shows the remains of what was once a 
largely intact allosaur vertebrae. The entire portion of the vertebrae 
that was protruding from the surrounding matrix has been sheared off.
    <bullet> LFigure 3 shows what was probably once a major portion of 
an allosaur skeleton. We will never know what scientific information 
this specimen would have yielded.
    <bullet> LTJV Figure 4. The imprint showing where a Diplodocus 
femur was stolen from Dinosaur Hill, a quarry just a short distance 
from the Fruita Paleontological Area near Grand Junction, Colorado.
                                 ______
                                 
    Mr. Renzi. Thank you, sir, and thank you, Mr. Vlamis, for 
your testimony.
    I have a statement from the Honorable Wayne Gilchrest, 
Chairman, which needs to be put into the record, and without 
objection. And hearing none, so ordered.
    [The prepared statement of Chairman Gilchrest follows:]

 Statement of The Honorable Wayne T. Gilchrest, Chairman, Subcommittee 
 on Fisheries Conservation, Wildlife and Oceans, on H.R. 2057 and H.R. 
                                 2416:

    Good morning, I am pleased to join with my colleague Scott McInnis 
in conducting this Joint Hearing on H.R. 2057, the Chronic Wasting 
Disease Support for the States Act and H.R. 2416, the Paleontological 
Resources Preservation Act.
    First identified in Colorado in 1967, Chronic Wasting Disease or 
CWD is a progressive, fatal and degenerative illness that has spread to 
both wild and captive herds of white-tailed deer, mule deer and rocky 
mountain elk. While the Centers for Disease Control have said that: 
``there is no evidence that CWD has been transmitted to humans under 
natural conditions'', there are still huge gaps in our knowledge base. 
For instance, we need to know what is the exact cause of this disease, 
how it is transmitted to other animals and what is the incubation 
period in cervids.
    H.R. 2057 is a comprehensive proposal that builds upon the efforts 
of the Department of Agriculture who has established a CWD 
surveillance, depopulation and indemnity program for affected farmed 
elk populations and has provided a $4 million dollar grant to the 22 
affected states. While these are positive steps, additional research, 
control, monitoring and money to combat this dreaded illness is 
essential. These are the fundamental goals of this legislation and I 
compliment the Chairman of the Forests Subcommittee for his tireless 
leadership on this issue.
    As an original co-sponsor of H.R. 2416, I believe it is long 
overdue that we establish a comprehensive national policy for 
preserving paleontological resources on Federal lands. In 1999, the 
National Park Service identified hundreds of documented cases involving 
theft or vandalism of prehistoric fossils.
    While this legislation will not prohibit casual collecting on 
Federal lands where allowed, it will ensure that these invaluable 
artifacts are not destroyed. The bones of an Allosaurus, Stegosaurus or 
Tyrannosaurus must be protected, preserved and managed for the benefit 
of future generations. They should be displayed in places like the 
American Museum of Natural History, the Dinosaur National Monument and 
the Smithsonian's National Museum of Natural History and not stashed 
away in a private collection, listed on Ebay or sold on the black 
market.
    I compliment the gentleman from Massachusetts, Congressman Jim 
McGovern for proposing the Paleontological Resources Preservation Act 
and I look forward to hearing from our distinguished witnesses on these 
two important pieces of legislation.
                                 ______
                                 
    Mr. Renzi. We are going to move to questions and I would 
remind members that we have a 5 minute time limit on questions, 
and I want to recognize first of all the co-sponsor of the bill 
from the great State of Massachusetts, Mr. McGovern.
    Mr. McGovern. Well, thank you. Since I am the author of the 
bill, I don't need to be convinced, but you have convinced me 
again why this is a good idea. I want to say, Mr. Lamb, and Ms. 
Estill, that I appreciate your comments and also the suggested 
amendments to the bill, and I am just looking at them very 
quickly, and most of them seem pretty reasonable to me.
    So I look forward to working with you and this Committee in 
trying to make sure that when this bill is reported out of here 
is as effective as it possibly can, and it is not weakened, and 
we are all committed to a stronger bill here.
    Dr. Forster, thank you very much for your testimony, and 
for all of your work in this area, and to my friend, Mr. 
Vlamis. I want to thank you. He and Pat Leejee with the Museum 
of the Rockies were actually the first people that came into my 
office and kind of talked to me about this issue, and I want to 
also thank you for continuing to bring to me models of T-Rex 
teeth and other things that I can give to my son.
    But I just wanted to make one point, and then I will yield 
back my time. And I think that all of you kind of mentioned it, 
but there is a big business in shelling these fossils and these 
dinosaur bones, and I think that a lot of people don't quite 
appreciate that.
    A number of people have said to me, well, what is the big 
deal. Well, there is a big deal, and you have mentioned a 
couple of cases where people have kind of stolen what should be 
public property, and made huge profits, and one of the things 
that we are trying to do is to stop that, and to make sure that 
these things are forever in the public domain, where 
scientists, and geologists, and people who study this stuff, 
and even kids, can have an opportunity to view these things.
    So again I thank you all for being here, and your 
testimony, and I look forward to working with all of you. Thank 
you.
    Mr. Renzi. I thank the gentleman from Massachusetts. I now 
recognize the gentleman from New Mexico, who has personally 
wrestled an allosaurus in many of his days, Stevan Pearce.
    Mr. Pearce. Thank you, Mr. Chairman. I do appreciate the 
bill and appreciate the gentleman from Massachusetts bringing 
it. My questions come kind of from the other direction. If 
there are tremendous profits to be made, and I know that there 
are, what is to keep the scientific community from occasionally 
slipping something out the back?
    Do you have any safeguards in the bill for that? And, Dr. 
Forster, I would direct that to you.
    Ms. Forster. Well, I don't know if there are any safeguards 
in the bill for that, but I know that in our society, the 
Society of Vertebrate Paleontology, we have a very strong 
ethics statement that goes along with joining the society, to 
which almost every professional paleontologist belongs.
    And it is absolutely unethical to be selling fossils if you 
are a professional paleontologist. This is completely wrong. 
And of course I am sure that occasionally it happens, but I 
don't know if there are any safeguards in the bill.
    But we try to police our own, and it is considered 
extremely unethical to do something like that.
    Mr. Pearce. Thank you. I do recognize that it would be 
considered that way, but people being what they are, unless you 
have the only group of people that are morally bound to every 
ethical standard that they aspire to.
    Ms. Estill. But the bill does require a permit for 
scientific collections, and agencies would monitor those 
permits, and so we feel like there is some safeguard.
    Mr. Pearce. Thank you, and just in extending my comment, we 
have got a lot of museums in my district, and when I go into 
the basements of museums, I am not too frankly impressed by the 
tracking mechanisms that are in place. I see things scattered 
in boxes, boxes piled on boxes, and boxes broken up, and things 
falling on the floor.
    And I wonder when we talk about the potential for our 
museums to safeguard these treasures why we would even continue 
collecting it at some point when we have so many samples that 
are being trapped in basements, and not being taken care of.
    That is I would say that this treasure should be left where 
it is at some point. Is there a response to--how do we track 
this once it gets into the museum system, because even though 
the paleontologists may have this ethical standard, you have 
got these boxes that are unkept and probably uninventoried, and 
through inventory are not checked regularly.
    And so then you have janitors and things that have access 
to those, and I worry about these things.
    Ms. Forster. I think it is probably a legitimate worry in 
some places. There are many museums that are not like that at 
all, where specimens are prepared as they come in, and there 
aren't jackets and boxes laying around. Every specimen has its 
place, and they know exactly where every specimen is.
    So I am not sure exactly which museum you are talking 
about, but it sounds like it can be a problem. It is 
potentially a problem, but again if it is part of the bill that 
the museum has to care for these specimens and track these 
specimens, I would hope that the museums would come up to snuff 
on that as well, because it is in their best interests to do 
so.
    And certainly as a paleontologist, I know where all of my 
fossils are that I collect, and I would hope that whatever 
museum you are talking about would come up to snuff as well. 
One of the problems of course for a lot of museums lack of 
funds to prepare fossils, although again museums that I know of 
are very good at keeping track of what they have got in their 
collections, even if they are in a box or are still in a 
jacket, they know what they have got, and they know it is in 
that jacket.
    Mr. Vlamis. Mr. Pearce, I might add that the provisions to 
the bill do provide for the revocation of the permit if someone 
violates the bill, and so that would certainly be a very strong 
sanction that would happen to any scientist who was selling 
things out the back door as you expressed in your concern.
    Mr. Pearce. I guess in extending that, my question is that 
there is no actual monitoring of the permit holders and even 
the amateurs, or in other words, there is no oversight. We get 
the permit, but then we depend on the human element to not be 
attracted by the $400,000 sales price that is essentially all 
profit, and that to me worries me that we have no technique to 
see what is taken by the permit holders, be they professional 
or amateur.
    And then we have no technique to monitor through the stream 
of progress what is going on, and so at some point I would say 
without careful safeguards, I would rather see them stay in the 
ground or on the ground, and they have been preserved for 
centuries there.
    And I would just leave that as an open question if someone 
wants to deal with it. Mr. Chairman, I would yield back the 
balance of my time.
    Mr. Renzi. Thank you, Mr. Pearce. I want to recognize 
another gentleman from New Mexico, the land of enchantment, Mr. 
Udall.
    Mr. Tom Udall. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I very much appreciate my colleague from 
Massachusetts, who has taken a great interest in this, and in 
working with Chairman McInnis to see that we do something about 
this.
    Both my colleagues here from the west, Mr. Pearce, and Mr. 
Renzi, are very aware that the Federal lands within our 
congressional districts also contain Indian sacred sites, and I 
want to ask about that, because I think that is a crucial issue 
here when we start talking about fossil collections, and Indian 
sacred sites, and I guess the first thing I want to ask is what 
effect, if any, does fossil collection have on Indian sacred 
sites on non-Indian Federal land, and then the second part of 
this is that Section 5 of this Act would direct the Secretary 
to develop an inventory and monitoring plans for 
paleontological resources in accordance with laws, regulations, 
and policies.
    Would it be helpful if this bill also required that plans 
be developed in accordance with Executive Order 13007 dealing 
with sacred sites? That is the President's Executive Order on 
sacred sites, and then any of the panelists can comment on 
that.
    Mr. Lamb. There is a specific provision in the bill with 
regard to sacred sites on Federal lands. I would welcome the 
opportunity to do a little research with regard to the 
Executive Order, and its interplay with this act, rather than 
just speaking extemporaneously about it.
    We are very concerned about protection of such sites, and 
are active in trying to protect them. By having a system--
essentially it goes also to Mr. Pearce's question. We are 
currently permitting the excavation of sites to technically 
qualified individuals and organizations.
    What this bill does is provide a more uniformed structure 
for that. There is very little consistent Federal law with 
regard to this entire area. We are using our organic statutes 
across 4 or 5 different agencies. I look, for example, of the 
definition of paleontological resource, and we have five 
different definitions.
    The public is confused about what its role is, and how it 
can participate. I recall when Secretary Hodel became Secretary 
of the Interior, and we were testifying before an 
appropriations committee, and this topic came up in the '80's.
    And he said that he was very concerned about the 
responsibilities that the Department had, and its ability to 
enforce, and protect these resources, and he had given the 
matter considerable thought, and the only way in which to do it 
is to provide a much greater role for the public, a much 
greater public participation, a greater involvement with 
volunteers.
    And working with organizations like these professional 
societies can really enhance our ability to protect these 
resources. Since that time of his testimony, I might point out 
that the number of volunteers in the Department of Interior 
across the board has increased some 180 percent.
    We now have 200,000 volunteers working with our employees, 
some three times the number of volunteers that we have actual 
employees. One of the things that this bill will do will 
encourage more partnerships with these professional 
organizations to meet some of these responsibilities.
    Mr. Tom Udall. Any other panelists have any comments on 
that? Let me just in the couple of moments that I have left 
just emphasize that when we are dealing with Indian sacred 
sites--I mean, a lot of people think of these as this may be 
something that is old, and there is not an ongoing activity.
    And I just spent time on one of my pueblos where the 
pueblos were showing me a couple of what they would consider 
sacred sites that dealt with collecting small specimens of rock 
that they used to paint when they do their dances, which is a 
continuing, on-going think, and a part of their religious 
activities.
    There was another place that they showed me where they 
collected a particular type of rock, and if it was in coloring 
in their pottery, which is also an ongoing activity. And so 
when I was out there at the time and saw this, they actually 
pointed out a couple of times as we were looking at these rocks 
that there were fossils mixed in with some of this.
    So I don't think it is an insurmountable issue at all, but 
I think it is just one that we all need to be very sensitive 
to, and I know that both the gentlemen from the west here are 
very aware, because they have Indian reservations and Indian 
sacred sites in their congressional districts.
    Mr. McGovern. Will the gentleman yield?
    Mr. Tom Udall. I certainly will, but I don't have any time. 
But I am sure that this generous Chairman here will give you 
time.
    Mr. McGovern. Well, the bill specifically states that 
nothing in this Act shall be construed to affect any lands 
other than Federal lands, or affect the lawful recovery, 
collection, or sale of paleontological resources from lands 
other than Federal lands.
    So if the gentleman wants to work on language that--I don't 
know if that addresses his issue or concern, or whether he 
wants more restrictions, or--
    Mr. Vlamis. I think I could offer some insight into this. 
If you look at the definition of paleontological resource in 
the bill, it specifically exempts fossils which are identified 
as archeological objects under 16 USC 470.
    So those would be protected already by existing law, where 
you have got a fossil that is part of a sacred Indian site. It 
would be covered and protected under ARPA, 16 USC 470. And this 
bill was also written specifically not to conflict with sites 
that are covered by NAGFRA (phonetic). So I believe what you 
would find is that this offers additional coverage, and in no 
way detract from the existing protection, which is already 
there.
    Mr. Tom Udall. I think the issue here, the bill exempts BIA 
lands, is that correct, from the sponsors? And what I am 
talking about is sacred sites on other Federal land, BLM and 
Forest Service land.
    Mr. Vlamis. Yes, and I am not an attorney, but my 
understanding is that those would be protected under the 
Archeological Resources Protection Act, 16 USC 470, and so 
there is not a need to protect them under this Act, because 
they are already protected.
    Mr. Renzi. Would the gentleman yield also?
    Mr. Tom Udall. Sure.
    Mr. Renzi. I may be missing my friend's point, but I think 
the gentleman is trying to also protect the ability of the 
Native Americans to harvest the stones, or the rocks that are 
used in coloring, and not so much to protect the fossils 
themselves. And it really--am I right my friend?
    Mr. Tom Udall. Yes.
    Mr. Renzi. OK. So I know that you are talking about 
protecting the fossils, but the gentleman is talking about 
protecting the colored rocks, OK? And that really leads to the 
question that I am going to get into if the gentleman is 
completed.
    Mr. Tom Udall. Let me just say that what I am worried about 
is protecting the religious activities. It is very much a part 
of Native American communities in my district, and I think in 
yours, and in Mr. Pearce's, and maybe some of the other members 
that are on this Committee.
    Mr. Renzi. I agree with the gentleman.
    Mr. Tom Udall. And with reference, I think that some cross-
reference or something to the Indian Religious Freedom Act may 
do that.
    Mr. Renzi. The Chair would recognize the gentleman from 
Colorado, Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman. I have only one 
question, and that is would you please tell me what the 
penalties are in a E Class felony?
    Mr. Lamb. I am not an expert on the exact penalties. They 
have been worked with the Department of Justice, in terms that 
they would be commensurate with other Federal statutes. I can 
get that information for you, sir, but the language is directly 
from the Justice Department to put them on a comparable 
standing.
    Mr. Tancredo. Yes. If you could, I would appreciate that 
information. That is all that I haves, Mr. Chairman.
    Mr. Renzi. Thank you, Mr. Tancredo. I am going to dove-tail 
on Mr. Udall's questions, and I had a couple of prepared 
questions that really fit into his line of questioning.
    And particularly Dr. Forster, if you wouldn't mind. I know 
that there was some discussions about other lands other than 
Federal lands, and I think that Mr. McGovern has done a 
wonderful job as far as articulating the fact that we are 
dealing specifically with Federal lands right now.
    Is the idea though that we would eventually look at maybe 
expanding this to the Bureau of Reclamation lands, or DoD 
lands, or obviously we have other areas where fossils are also 
going to be found.
    Ms. Forster. I think that I am going to refer that to my 
colleague, Mr. Vlamis, here.
    Mr. Vlamis. I think that is something that might want to be 
looked at down the road. For example, there are some very 
important paleontological sites which are located on Army Corps 
of Engineer's land that are also very accessible, offering the 
potential of illegal collecting.
    Mr. Renzi. Thank you.
    Mr. Vlamis. So that might be a wise future thing to look 
at.
    Mr. Lamb. With regard to the Department of the Interior, 
this bill would extend provisions to the Bureau of Reclamation 
since it is one of our Interior--
    Mr. Renzi. It would cover lands currently under management 
by the Bureau of Reclamation?
    Mr. Lamb. Yes, it would.
    Mr. Renzi. OK. Mr. Lamb, that leads into my second question 
then, is that Mr. Udall specifically was looking at the ideas 
that a possibility could exist where Native Americans could be 
looking at going out and finding sacred stones.
    We in the west very much are in the business of land 
exchange, where we see Federal lands, Bureau of Reclamation 
lands, and we exchange them for private lands. Does the 
legislation at all obstruct or hinder our ability to exchange 
those lands?
    Mr. Lamb. As part of those exchanges, there is usually an 
inventory of the resources of that land, and if there is a 
significant, scientifically significant, scientifically 
significant portion of the land that holds immense value, I 
know from personal experience on exchanges that this becomes a 
subject matter of the exchange itself, and how that will be 
protected and what type of arrangements must be made to protect 
it.
    Mr. Renzi. Would we treat it similarly to archeological 
sites as we now treat it during land exchange?
    Mr. Lamb. I believe so.
    Mr. Renzi. You imagine so?
    Mr. Lamb. In fact, the entire intent of this bill is to 
treat paleontology much like we treat archeology on Federal 
lands. That is really the intent of it, in terms of all of the 
general provisions, is to bring paleontology up to the same 
standards that we have had in place very effectively for 25 
years, in terms of archeological resources.
    Mr. Renzi. OK. Thank you, sir. With that, I want to thank 
all the witnesses on our second panel for your insights, and 
your expertise, and also the members for their questions. The 
members have some additional questions for the witnesses, and 
we ask that you please respond to them in writing.
    The hearing record will be held open for 10 days for these 
responses. If there is no further business before this 
Subcommittee, I would like to adjourn for 5 minutes, and then 
reconvene with the Subcommittee on Forest and Forest Health for 
our additional bills. The Subcommittee now stands adjourned.
    [Whereupon, at 12:31 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
